<html>
<title> - MISCELLANEOUS PUBLIC LANDS BILLS</title>
<body><pre>[Senate Hearing 107-754]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-754
 
                    MISCELLANEOUS PUBLIC LANDS BILLS
=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON PUBLIC LANDS AND FORESTS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                   on
                                     

                           S. 454                                S. 1711
 
                           S. 1139                               S. 1907
 
                           S. 1325                               H.R. 1576
 
                           S. 1497                               H.R. 2385
 

                                     
                               __________

                              MAY 9, 2002


                       Printed for the use of the
               Committee on Energy and Natural Resources





                          U.S. GOVERNMENT PRINTING OFFICE
82-709                             WASHINGTON : 2002
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001






               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman
DANIEL K. AKAKA, Hawaii              FRANK H. MURKOWSKI, Alaska
BYRON L. DORGAN, North Dakota        PETE V. DOMENICI, New Mexico
BOB GRAHAM, Florida                  DON NICKLES, Oklahoma
RON WYDEN, Oregon                    LARRY E. CRAIG, Idaho
TIM JOHNSON, South Dakota            BEN NIGHTHORSE CAMPBELL, Colorado
MARY L. LANDRIEU, Louisiana          CRAIG THOMAS, Wyoming
EVAN BAYH, Indiana                   RICHARD C. SHELBY, Alabama
DIANNE FEINSTEIN, California         CONRAD BURNS, Montana
CHARLES E. SCHUMER, New York         JON KYL, Arizona
MARIA CANTWELL, Washington           CHUCK HAGEL, Nebraska
THOMAS R. CARPER, Delaware           GORDON SMITH, Oregon

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               Brian P. Malnak, Republican Staff Director
               James P. Beirne, Republican Chief Counsel
                                 ------                                

                Subcommittee on Public Lands and Forests

                      RON WYDEN, Oregon, Chairman
DANIEL K. AKAKA, Hawaii              LARRY E. CRAIG, Idaho
BYRON L. DORGAN, North Dakota        CONRAD BURNS, Montana
TIM JOHNSON, South Dakota            PETE V. DOMENICI, New Mexico
MARY L. LANDRIEU, Louisiana          DON NICKLES, Oklahoma
EVAN BAYH, Indiana                   GORDON SMITH, Oregon
DIANNE FEINSTEIN, California         CRAIG THOMAS, Wyoming
CHARLES E. SCHUMER, New York         JON KYL, Arizona
MARIA CANTWELL, Washington           RICHARD C. SHELBY, Alabama

  Jeff Bingaman and Frank H. Murkowski are Ex Officio Members of the 
                              Subcommittee

                          John Watts, Counsel
                Frank Gladics, Professional Staff Member
                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bingaman, Hon. Jeff, U.S. Senator From New Mexico................     5
Bowman, Randal, Special Assistant to the Assistant Secretary for 
  Fish, Wildlife, and Parks, Department of the Interior..........    17
Campbell, Hon. Ben Nighthorse, U.S. Senator From Colorado........     4
Craig, Hon. Larry E., U.S. Senator From Idaho....................
Finfer, Larry, Assistant Director for Communications, Bureau of 
  Land Management, Department of the Interior....................    22
Hatch, Hon. Orrin G., U.S. Senator From Utah.....................     6
Johnson, H.T., Assistant Secretary of the Navy (Installations and 
  Environment), Department of the Navy...........................    14
Kearney, Chris, Deputy Secretary for Policy and International 
  Affairs, Department of the Interior............................    24
Manning, Gloria, Associate Deputy Chief, National Forest System, 
  Forest Service, Department of Agriculture......................    19
Murkowski, Hon. Frank H., U.S. Senator from Alaska...............    19
Porter, Janet S., Treasurer, Catron County, NM, on behalf of the 
  National Association of Counties...............................    32
Smith, Hon. Gordon, U.S. Senator from Oregon.....................    27
Udall, Hon. Mark, U.S. Representative from Colorado..............     9
Wyden, Hon. Ron, U.S. Senator From Oregon........................     1

                                APPENDIX

Additional material submitted for the record.....................    37


                    MISCELLANEOUS PUBLIC LANDS BILLS

                              ----------                              


                         THURSDAY, MAY 9, 2002

                               U.S. Senate,
          Subcommittee on Public Lands and Forests,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:34 p.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Ron Wyden 
presiding.

             OPENING STATEMENT OF HON. RON WYDEN, 
                    U.S. SENATOR FROM OREGON

    Senator Wyden. The subcommittee will come to order.
    The purpose of this afternoon's hearing is to receive 
testimony on several public lands and national bills.
    We will examine S. 454. That is Senator Bingaman's bill to 
guarantee full funding every year for the Payment in Lieu of 
Taxes program, which compensates local governments for the loss 
of property taxes due to the presence of Federal land in their 
boundaries. The administration has proposed funding this 
program at only about half the authorized the level for fiscal 
year 2003. In contrast, S. 454 would permanently fund the 
program and the Refuge Revenue Sharing program at their full 
authorized levels without the need for further appropriation.
    S. 1139 directs the Federal Government to convey 
approximately 19 acres containing cemeteries to two Nevada 
municipalities. This legislation would allow the communities to 
continue using these cemeteries through public ownership of the 
land rather than through the permitting process of the Federal 
agencies.
    S. 1325 would ratify an agreement between the Aleut 
Corporation and the Federal Government to exchange lands 
received under the Alaska Native Claims Settlement Act for 
other land interests on Adak Island. This legislation would 
allow the Aleut Corporation to make use of buildings and other 
facilities on the island the Navy has vacated following the 
closure of a naval base.
    S. 1497 and H.R. 2385 would authorize a grant to the city 
of St. George, Utah to buy up to 10 acres of land to protect 
dinosaur footprints, tail draggings, and other rare 
paleontological resources on the property.
    S. 1711 and H.R. 1576 would designate the James Peak 
Wilderness and the James Peak Protection Area straddling the 
Continental Divide in the State of Colorado.
    S. 1907, which Senator Gordon Smith and I sponsor, would 
direct the Secretary of the Interior to convey approximately 40 
acres of land to the city of Haines, Oregon. This land is 
immediately adjacent to the city's landfill and would provide 
topsoil which the city needs to comply with State regulatory 
requirements for the continued operation of the facility.
    Before I recognize our witnesses, I want to recognize my 
colleague first. The ranking minority member and I have been 
working together on these kinds of issues now for more than 20 
years in both the House and the Senate, and we have always 
pursued them in a bipartisan way. We are going to do that and 
move ahead with today's business quickly, and I want to 
recognize him for any statement he chooses to make.

        STATEMENT OF HON. LARRY E. CRAIG, U.S. SENATOR 
                           FROM IDAHO

    Senator Craig. Well, Mr. Chairman, thank you very much. Are 
we back?
    Senator Wyden. We are back.
    Senator Craig. The lights are on?
    Senator Wyden. I guess so.
    Senator Craig. We are functioning. We have been in a hiatus 
since way back last October, folks. So, we are extremely 
pleased to think that we might be legislating again.
    [Laughter.]
    Senator Craig. That is not a reflection on this chairman, 
and I will stop there so that we can keep this in a compatible, 
smiling, bipartisan tone today.
    Senator Hatch, it is great to have you before us. I look 
forward to your testimony on S. 1497. Footprints and skin 
impressions of dinosaurs?
    Senator Hatch. Yes. Tail draggings. You would be surprised. 
It is really something.
    Senator Craig. That is intriguing. So, we will look forward 
to that testimony.
    We will also, as the chairman mentioned, deal with S. 1711 
and H.R. 2385. Congressman, I look forward to your testimony on 
those issues.
    If I could for just a few moments, though, Mr. Chairman, 
let me spend some time on an issue that is important to Idaho, 
Oregon, Colorado, public land Western States. I am talking 
about PILT and why we continue to need to find ways to fully 
fund this program.
    As you know, Congress revised the PILT formula in 1993, and 
at that time, Congress ramped the PILT authorization up over a 
5-year period. Congress has not yet found the funding needed to 
meet the commitment made in 1993.
    All of us here today completely understand why these 
payments are so important to our public land counties. When 50 
to 90 percent of your county is federally managed, you have a 
very small private property tax base from which to meet your 
citizens' needs, and unlike the funds generated by the Forest 
Service receipts that certainly you and I have worked on so 
closely over the years and we have been successful on--we have 
got to expand the opportunity for schools and roads, bridges--
PILT funding can be utilized for a lot of reasons and a lot of 
very valuable and important needs within these counties.
    I believe all of us here today also understand what happens 
to our rural counties when the Federal Government walks away 
from its commitment to utilize our national forests to supply 
the water, and the wood that are needed for our Nation. We 
understand that the economic activities generated through the 
Federal timber sale program makes the combined PILT and revenue 
sharing payments look like chump change in reality. But we have 
lost a lot of that program over the years. We are trying to 
regain forms of active management to restore forest health and 
in doing so, we hope we can be successful in a variety of ways. 
But the reality is there has been a tremendous loss of revenue 
over the last decade as a result of Federal policy changes and 
programs, and it even increases the need for PILT.
    I think we also had better keep in mind how much money 
these Federal lands might produce in property tax if counties 
and local governments were allowed to tax them in the same way 
they tax other undeveloped lands within the counties. In a 1997 
U.S. Forest Service published study, called ``An Analysis of 
PILT-Related Payments and Likely Property Tax Liability of 
Federal Resource Management Lands,'' the study showed that if 
we fully funded PILT and added to it the Federal revenue 
sharing payments, the 25 percent and the O&C monies that Oregon 
receives, if we looked at that on the 1996 level, that on the 
average local property taxes would still generate about 94 
cents more per acre than the Federal sources of revenue coming 
in. In other words, still our county commissioners and 
therefore our local communities are tremendously disadvantaged 
with these beautiful, marvelous assets if you look at them in a 
revenue context.
    So today, Mr. Chairman, we will again be asked to fulfill 
the commitments that we have made to our rural communities that 
are saddled with hundreds of thousands of acres of Federal land 
which now generate little to no economic activity. At the same 
time, we know that they do generate a lot of other kinds of 
activities.
    Over the last 6 years, in which I have been a member of the 
Appropriations Committee, we have made very real progress in 
meeting our PILT commitments. In 1997, funding of PILT, 
compared to where we are today, we have seen a 50 percent 
increase, and that is substantial. This past year we provided 
$210 million in PILT funding, up from $124 million in '98. And 
the story goes on and on.
    My point is simply this. I know that the chairman of the 
full committee is striving to make this an entitlement, if you 
will. I am not sure that we can gain that kind of support, but 
we clearly have to continue to work toward the full funding of 
PILT.
    As the rest of the world comes to see the beautiful lands 
of the West, counties and county governments still have great 
obligations. The flying of a life flight helicopter into the 
back country and into the beautiful areas along the River of No 
Return and the Salmon River can oftentimes wipe out almost an 
entire emergency budget of a local county. Now, does the Forest 
Service step in and pay, even though that person who might have 
been injured paid a fee and is on Forest Service land? No, they 
do not. That is an obligation of the local county. And that is 
one example, Mr. Chairman.
    There is clear need for the full funding of PILT. We must 
continue to work in that direction.
    Thank you. I have taken more time than I should, but as we 
deal with Senator Bingaman's bill, clearly this is an issue 
that deserves our time and our attention. Thank you.
    Senator Wyden. I thank my colleague for a very fine 
statement, and we are glad to have Senator Campbell here.

          STATEMENT OF HON. BEN NIGHTHORSE CAMPBELL, 
                   U.S. SENATOR FROM COLORADO

    Senator Campbell. Thank you, Mr. Chairman. I will try to 
make my statement brief.
    But I do want to associate my remarks with Senator Craig's 
dealing with PILT. It does not seem like either administration 
from either side of the aisle really understands the need of 
the PILT in the West because almost every year we fight that 
battle here in the Appropriations Committee trying to increase 
the money over whatever the President's budget has, regardless 
if it is a Republican President or a President of the 
Democratic Party.
    As Senator Craig said, that is a major source of keeping 
afloat our fire departments, our police departments, literally 
all forms of government. In Nevada there are some counties that 
are 90 percent Federal ground. Every time we put more land in 
the Federal coffers, that is going to reduce the amount that 
that could generate in the private sector. Very often even what 
we put in PILT does not offset the amount that it would have 
raised in the private sector.
    Nevertheless, I am very well aware that most Americans want 
more land in the public sector, and we hope that the offset 
will be increased tourism if it is park land or something along 
that line.
    So, today we have a number of bills before us. You were 
talking very fast when you read the brief introduction to all 
those bills, but some of them sound very interesting. I am 
really interested in hearing Senator Hatch's bill dealing with 
the footprints of dinosaurs and the tail draggers of those 
historic times.
    The bill that I am introducing really is S. 1711 that was 
carried on the House side by my friend, Mark Udall, whose dad 
was kind of my mentor and guru for years and years, as he was 
for many of us who are now serving in the Senate, Mo Udall. But 
this language is a product of a lot of years of detailed 
negotiations regarding an area of great majesty in our home 
State of Colorado. The bill stands as a testament of what can 
be achieved when interested parties get together for a moment 
and stop screaming at each other and start listening to each 
other. Certainly Mark has been involved in this right from the 
very beginning, and I was very proud to be the Senate sponsor 
for him.
    The James Peak Wilderness and Protection Act, as it is 
called, respects the diverse uses of Colorado lands and 
recognizes that about 14,000 acres in Boulder, Clear Creek, and 
Gilpin Counties ought to be in wilderness. It enlarges the 
existing Indian Peaks Wilderness by about 3,195 acres. Further, 
this carefully balanced approach designates 16,000 acres of 
national forest land as the James Peak Protection Area. The 
protection area in Grand County would disallow development of 
the land but would permit recreational use for the public's 
continued enjoyment.
    I am very pleased with the careful compromises that 
Congressman Udall worked out, and I am just very proud to also 
support it. I would hope my colleagues would also support this 
bill. Thank you.
    Senator Wyden. We are pleased to have the distinguished 
chairman of the full committee, Senator Bingaman, here who, of 
course, has an extremely important bill with respect to 
ensuring that there be additional funds for the Payment in Lieu 
of Taxes program. Before you came, there was significant 
support from all of your colleagues on both sides of the aisle. 
Clearly, I think there is great bipartisan interest in working 
under your leadership, Mr. Chairman, to deal with a tremendous 
funding crunch all over the West.
    As natural resources policies change, a lot of our 
communities simply do not have the funds for essential 
services. Your proposal, in effect, offers a lifeline to much 
of the rural West. If we cannot get it in exactly the form it 
is drafted now, perhaps we can figure out another way to 
achieve the same sort of objectives with respect to funding.
    I am very pleased that you are leading this effort, and 
please proceed with any statement you choose.

         STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR 
                        FROM NEW MEXICO

    The Chairman. Well, thank you very much. I appreciate very 
much your having this hearing, and I do appreciate the support 
of a lot of people here in the Senate for the effort we are 
making to try to get full and automatic funding for the Payment 
in Lieu of Taxes. For those of us who represent public land 
States, an absolutely essential part of providing local 
government services is to be able to get some compensation for 
the fact that we have lost the tax base because the Federal 
Government owns so much land in some of these counties.
    Jan Porter is here to testify on behalf of Catron County 
and the Association of Counties around the country to explain 
this position.
    I have noticed since I have been here that we sort of have 
a game that the administration plays each year on this. They 
always cut back on funding, and this has been true, I will say, 
whether it is a Republican administration or a Democratic 
administration. They always cut back on the funding. It is 
always left to those of us in Congress to add back the money. 
Even after we add back the money, the counties wind up with, at 
best, maybe two-thirds of what we have authorized and 
recognized is the appropriate level.
    So, I would like to see us end that game and go ahead and 
fund it at the full funding level and provide for automatic 
funding of it. And that is the purpose of the legislation. I 
hope very much we can enact it this year. I think it would be a 
great benefit to the counties in my State and I think 
throughout the West and all the States that have a lot of 
public land in them. So, I hope that is the result.
    I am in the middle of a markup on the Armed Services bill, 
so I may not be able to stay for the full testimony. But I very 
much appreciate your having the hearing.
    Senator Wyden. Thank you, Mr. Chairman. This idea of 
breaking the cycle where both political parties go through this 
sort of quasi-charade of pretending that they are for this 
program and then systematically shortchanging it every step of 
the way is a cycle we ought to break. Your bill gives us that 
chance, and we will be working closely with you on it. I 
appreciate your coming.
    We are going to begin today with Senator Hatch. Senator 
Hatch and I have worked together on so many issues, health care 
issues, natural resources issues, law enforcement issues. We 
are just always glad to have you, Senator Hatch. You just 
proceed in any way that you choose.

        STATEMENT OF HON. ORRIN G. HATCH, U.S. SENATOR 
                           FROM UTAH

    Senator Hatch. Well, thank you, Senator Wyden. I appreciate 
appearing before you and really appreciate the friendship you 
show here in the Senate to me.
    I apologize for my voice. I had laryngitis 2 weeks ago, and 
for some reason it has come back.
    Mr. Chairman and members of the committee, first of all, 
let me compliment you for your attitudes about PILT. We really 
do need to do more there. Our small counties are really 
hurting.
    But I first want to thank you for holding this hearing 
today, for agreeing to receive testimony on behalf of S. 1497. 
This is a bill to convey certain property to the city of St. 
George, Utah in order to provide for the protection and 
preservation of some rare paleontological resources on that 
property.
    Now, I applaud the leadership of Representative James 
Hansen who chairs the House Resources Committee and who was the 
original sponsor of this legislation. Jim does a great job over 
there.
    Mr. Chairman, this legislation will provide vital 
protections to one of our Nation's most recent and most intact 
pre-Jurassic paleontological discoveries.
    In February 2000, Sheldon Johnson of St. George, Utah began 
development preparations on his land when he uncovered one of 
the world's most significant collections of dinosaur tracks, 
tail draggings, and skin imprints in the surrounding rock. I 
was fortunate enough to arrive down there right about the time 
they found these things. It was absolutely stunning to me.
    The site has attracted thousands of visitors and the 
interest of some of the world's top paleontologists. But 
because they could not be here for this hearing, I would like 
to read a letter written by Mr. and Mrs. Johnson who have now 
become the guardian angels over this important site.

    Dear Chairman Bingaman, Senator Hatch, and members of the Energy 
Committee:
    Today scientists are still discovering previously unknown animals 
and plants at this dinosaur site. University Graduate students are 
doing masters theses here. Text books are being written about new 
information that goes back 200 million years, thanks to discoveries 
being made in this unlikely spot just one mile off Interstate 15.
    S. 1497 will provide the seed money so desperately needed to save 
this valuable resource.
    The wonder of this site captures imagination. Without any 
advertising or road signs, last month we had over 7,000 visitors, and 
have had well over 350,000 visitors in the past two years. People come 
from every State, over 80 nations. Our sign-in books tell us that over 
70 percent of visitors come from outside the State of Utah.
    A mother with her family from Beijing, China said: ``This gives me 
the same feeling as when I visit the Great Wall of China. We are 
standing in history. It makes the hair stand up on my arms.''
    A visiting doctor from Paris, France said: ``Who will help you with 
this? You know this treasure does not just belong to America. It 
belongs to all the world.''
    With your help we will save it for America and all the world.
    Please salute the volunteers at this site. The congressional record 
should bear witness to their dedication, earned knowledge, good humor, 
and endurance as they greet busloads of students and friends from 
around the world. The extremes of heat and cold make their job 
difficult, but they have mastered the art of giving service.
    We are grateful to Senator Bingaman and the members of the Senate 
Energy committee for considering this bill. We hope it will pass 
unanimously as it has from previous thoughtful hearings.
    Sincerely, LaVerna B. Johnson and Dr. Sheldon B. Johnson, 
DinosaurAtorium, a Center for Science and Imagination.

    Now, Mr. Chairman, I ask permission that this letter and 
other letters from scientists around the world be included in 
this record.
    Senator Wyden. Without objection, so ordered.
    Senator Hatch. Thank you very much.
    Now that these prints have been uncovered, the fragile 
sandstone in which the impressions have been made is in 
jeopardy, due to the heat and wind typical of the southern Utah 
climate. We must act quickly if these footprints from our past 
are to be preserved.
    This bill would authorize the Secretary of the Interior to 
purchase the land where the footprints and tail draggings are 
found and convey the property to the city of St. George which 
will work with the property owners and the county to preserve 
and protect the area and resources in question. So, I urge the 
committee to support this effort to protect our national 
treasure.
    Mr. Chairman, I was there. I have to admit when I went out 
there, I was a little jaundiced, but when I got there and I saw 
what they had uncovered and how the slabs of rock would split 
apart and show these tremendously big tracks--and they were as 
clear as a bell--I have to admit it was a sense of wonder that 
filled me. And I am not just saying that. It really was a 
wonderful thing to see.
    So, I hope that you can help with this bill. It would be a 
wonderful thing. I would hate to see this soft limestone eroded 
to where we would not be able to have people see these 
marvelous things and have the research done that really is 
essential to help us understand these large creatures that 
existed so many years ago.
    But thank you. I am sorry I have taken so much time.
    Senator Wyden. Well, Senator Hatch, let me just say I 
strongly support your efforts, and we are going to everything 
we can to move this as quickly as possible. I think you have 
made the case that dawdling here and allowing weather and time 
to literally chip away at these treasures would just be a 
tragedy. So, you have made the case in my view, and I am really 
glad that you are here trying to preserve this little bit of 
history that is going to be so special.
    Senator Hatch. Thank you so much.
    Senator Wyden. Let me see if my colleagues want to make a 
comment or ask any questions. Then we will excuse you. Senator 
Craig.
    Senator Craig. Well, thank you, Mr. Chairman.
    Orrin, it is a fascination that is a unique part of the 
world down there in the southern part of your State. How many 
acres are we talking about?
    Senator Hatch. I am not sure how many acres, but it looked 
to me fairly substantial. It is about 10 acres, I am informed 
by staff. It is right near the city. As you come out of St. 
George, it is right on the right side of the road headed toward 
Salt Lake, if I recall it correctly. It has been a while since 
I have been there. But it is truly amazing.
    Senator Craig. Well, thank you.
    Senator Hatch. You bet.
    Senator Wyden. Senator Campbell.
    Senator Campbell. I have been to St. George, Orrin. You 
said it is right near the city limits somewhere?
    Senator Hatch. It is not very from.
    Senator Campbell. And it is in private ownership now. How 
do the people who have it now prevent vandalism or anything 
that often takes place with something like this?
    Senator Hatch. That is one of the worries with 350,000 
people coming. They have a bunch of volunteers.
    Senator Campbell. So, it is open to the public now. It is 
private land, but it is open for people to go in there.
    Senator Hatch. Well, they know where it is and anybody 
could come and just walk anywhere they want to and play with 
the tracks and everything else. I would like to see these 
really protected.
    Senator Campbell. So, Interior would purchase it and give 
it to the city of St. George or the county?
    Senator Hatch. That is my understanding. That is correct. 
Yes, it would be a pass-through.
    I think it is a fairly decent bargain too because this 
place is worth a fortune.
    Senator Campbell. Is that what land sells for around there, 
about that much?
    Senator Hatch. I have no idea about that, but land in St. 
George is pretty high. It is a very attractive place to live.
    Senator Campbell. Like you, Mr. Chairman, I support it too. 
It will be interesting visiting sometime when I drive through 
St. George. Thank you.
    Senator Hatch. We would love to have you.
    Senator Wyden. I think at this point the only thing I want 
is a guided tour from Orrin Hatch.
    [Laughter.]
    Senator Hatch. I think you would want somebody a little 
more professional to show you around, but I would be happy to 
go with you, put it that way.
    But thank you all for your kindness.
    Senator Wyden. Thank you. We will excuse you at this time.
    All right. We have now Congressman Udall who will be 
speaking about his bill, H.R. 1576. My understanding is, as 
Senator Campbell had alluded to earlier, that you all have 
really forged a very strong bipartisan consensus and brought 
together everybody at the local level, which is the key to 
sensible natural resources policy. It is what Senator Craig and 
I tried to do with the county payments bill last session. So, 
congratulations on all you have done. I look forward to 
supporting your efforts.
    Why don't you go ahead and make your statement this 
afternoon.

       STATEMENT OF HON. MARK UDALL, U.S. REPRESENTATIVE 
                         FROM COLORADO

    Mr. Udall. Thank you, Mr. Chairman and members of the 
committee, to inviting me to share my testimony. If I could, I 
would like to submit my testimony for the record and be brief 
to leave time for questions and any comments.
    Senator Wyden. Without objection, that will be ordered.
    Mr. Udall. I did want to make some acknowledgements and 
then conclude, Mr. Chairman. I thank you for the hearing and 
would tell you historically a quick retrospective. The House 
passed this on a voice vote last year and it could not have 
happened without the leadership and hard work of my colleague, 
who my friend Mr. Campbell knows, Scott McInnis. He worked 
very, very hard to continue to keep people at the table. It 
passed by a voice vote in the House, but it took over 2\1/2\ 
years to work all the compromises and to solve all the 
questions that had been asked.
    I did want to thank our senior Senator and my good friend, 
Senator Campbell, for sponsoring an identical measure over 
here. I understand our junior Senator, Senator Allard, has also 
joined as a co-sponsor.
    Senator Campbell. Senator Allard asked to co-sponsor this 
bill.
    Senator Wyden. Without objection, that will be so ordered.
    Senator Campbell. Thank you.
    Mr. Udall. Senator Campbell's remarks I think hit the nail 
on the head. I would associate myself with those remarks.
    I would make one last comment. James Peak, which is the 
center of the area, is named for Dr. James who was one of the 
first Anglos to climb Pikes Peak in that first party. His 
supporters and friends tried to name Pikes Peak James Peak, but 
Zebulon Pike had already put his marker down, and so we have 
Pikes Peak named Pikes Peak. But this gentlemen for whom the 
peak is named was a pioneer and explorer.
    Senator Campbell. My ancestors already----
    Mr. Udall. You noticed I said Anglo. But this is what is so 
great about being in the West and the history we have.
    As I listen to all of us westerners talk and far 
westerners, with all due respect to Oregon, if we just had 
westerners here, we could solve this PILT problem in about 5 
minutes. Senator Craig, I am sure of it.
    So, again, I thank you for the hearing and I would urge you 
and your colleagues to move the House-passed bill, if at all 
possible, so we could send it to the President for signing into 
law before the end of the Congress. I think the compromise 
would hold if we were not able to act in this session of the 
Congress, but I would not want to take our chances. So, I hope 
we can move this and move it to the President's desk. I thank 
you again for allowing me to appear today.
    [The prepared statement of Mr. Udall follows:]
      Prepared Statement of Hon. Mark Udall, U.S. Representative 
                             From Colorado
    Thank you, Mr. Chairman. I greatly appreciate your scheduling this 
hearing on the James Peak bill.
    The bill passed the House last year on a voice vote. That could not 
have happened without the leadership and hard work of my colleague from 
Colorado, Representative Scott McInnis, who chairs the Forests and 
Forest Health Subcommittee. I want to note my great appreciation for 
what he has done to make it possible for your to be considering the 
bill today.
    I also want to thank our Senior Senator, Senator Campbell, for 
sponsoring an identical companion measure here in the Senate. I greatly 
appreciate his initiative and support.
    The bill will provide additional protection for a key part of the 
high alpine environment along Colorado's Continental Divide.
    Rising to 13,294 feet above sea level, James Peak is a noticeable 
feature of this part of the Front Range section of our state. It is a 
dominant feature in a 26,000-acre roadless area within the Arapaho-
Roosevelt National Forest that straddles this part of the Continental 
Divide.
    The James Peak roadless area includes lands within 4 counties. 
Three--Boulder, Clear Creek and Gilpin--are on the east side of the 
divide, within Colorado's Second Congressional District, which I 
represent. The other--Grand County--is on the western side. That county 
currently is in the Third Congressional District, represented by Mr. 
McInnis, but will become part of the Second District next year.
    The area offers outstanding recreational opportunities for hiking, 
skiing, fishing, and backpacking.
    This is the largest roadless area on the Northern Front Range that 
has no specific statutory protection--under current law it is open to 
mining claims, new roads, and other developments that can occur on 
general national forest lands.
    In my opinion, these roadless lands are eminently qualified for and 
deserve to be added to the National Wilderness Preservation System--and 
that is the view of many other Coloradans as well.
    My predecessor, Representative David Skaggs, introduced a James 
Peak wilderness bill, but action on it was not completed.
    Since my first election to Congress, I have been working to protect 
the wilderness qualities of the James Peak area. I introduced a bill in 
the 106th Congress that would have designated about 22,000 acres of the 
James Peak roadless area as wilderness, including about 8,000 acres in 
Grand County.
    That proposal was designed to renew discussions for the appropriate 
management of these lands that qualify for wilderness consideration--
and that discussion certainly has taken place.
    In fact, the bill as now passed by the House has been shaped by 
nearly two years of discussions with county officials, interested 
groups, and the general public.
    The previous bill had broad support. However, after its 
introduction, the County Commissioners of Grand County--which includes 
the western side of the James Peak area--expressed some concerns with 
the proposed wilderness designation for the lands in that county.
    As an alternative, the Grand County Commissioners put forth a 
suggestion for designation of a ``James Peak Protection Area'' that 
would include both the Grand County part of the roadless area and 
additional lands as well. That suggestion is a key part of the bill 
approved by the House.
    The bill as passed by the House also incorporates a number of other 
changes that Representative McInnis and I developed through 
negotiations.
    In short, this bill is a compromise--but a good compromise.
    It does not do everything I would have liked, but it probably does 
more than some others would have liked. That is what a compromise is 
all about.
    In particular, it does not designate as much wilderness as I would 
have preferred on the western side of the James Peak area.
    But it also does not preclude the Forest Service from revisiting 
that issue in the future--and in fact it makes clear that at least part 
of these lands on the west side will be reviewed for possible 
wilderness recommendations.
    Mr. Chairman, the James Peak area is indeed special. With the 
continuing pressure of population growth in Colorado, and particularly 
along the Front Range, I fear that if we do not protect these lands 
now, we could lose a critical resource for future generations.
    So, again, I thank you for scheduling this hearing, and I urge you 
and your colleagues to move the House-passed bill forward without 
unnecessary delay so that it can be sent to the President for signing 
into law before the end of this Session of Congress. I will be glad to 
respond to any questions.

    Senator Wyden. Let me recognize Senator Campbell.
    Senator Campbell. Well, Mr. Chairman, I have worked on a 
number of wilderness bills and I can tell you that wilderness 
bills can often be very contentious and difficult when you deal 
with Western water and all kinds of things. I do not really 
have any questions of you, Mark, except to commend you on 
keeping all those diverse groups at the table. When we were 
working even on something as simple as upgrading the Black 
Canyon to national park status, it seemed like every time we 
would have a meeting, somebody would show up and say, you did 
not ask me. And we would have to start all over with a new 
constituency group that was not involved all the foregoing 
discussions. We would have to almost start over from first base 
every single time. So, I know it was not easy for you.
    Maybe just let me ask you that one simple question. What 
was the most divisive, difficult thing you had to deal with 
when you were writing this bill?
    Mr. Udall. Have you got all day?
    [Laughter.]
    Mr. Udall. I think certainly the water issues popped up. 
Whiskey is for drinking. Water is for fighting over. We know 
that is a true statement, aphorism in the West.
    I think, Senator Campbell, getting and keeping everybody at 
the table and encourage people to continue to talk with each 
other, to build on that Western tradition which we used to 
great effect, but we also have a Western tradition of pulling 
out our six-guns and firing away. We did not do that, and there 
were plenty of people who would have liked us to have taken 
that course of action. Calmer heads prevailed in building 
relationships, and we never mistrusted each other. There was a 
lot of trust in the process, and I think that is why we reached 
this point we have reached today.
    Senator Campbell. Very good. We will do the best we can.
    Senator Wyden. Send some of the calm heads our way.
    [Laughter.]
    Mr. Udall. If I could bottle whatever we were all drinking 
and send it your way, I will do that, Senator Wyden. We have 
more work to do in the West, for sure.
    Senator Wyden. I interrupted you, Senator Campbell.
    Senator Campbell. No. I was done. Thank you, Mr. Chairman, 
and thanks, Mark.
    Senator Wyden. Senator Craig.
    Senator Craig. Congressman, thank you. I too commend you on 
the compromises struck.
    Let me ask a couple of questions because I have been 
frustrated over the years in the inability of us to bring some 
wilderness about, and at the same time we saw what happened 
when we could not take the next step in the RARE II process 
several years ago. President Clinton then tried to move in a 
rather sweeping, massive way to deal with the roadless issue, 
unsuccessfully. I fought him. Others fought him because we did 
not think that was quite the right way to go. At the same time, 
we know that these roadless areas beg the question. What are we 
going to do with them? How are we going to handle them? How are 
we going to manage them? It is argued by many that we should 
never enter them, and that idea has a strong support base.
    And yet, in this one, you struck an interesting approach as 
it relates to forest health. I understand that it is true 
within this that you do allow access to deal with certain 
forest health kinds of issues. Probably one of the greater 
problems we have today is this very substantial fuel buildup on 
our forest floor, and wilderness has become neat, little, 
charred, devastated areas, tragically enough sometimes, if we 
cannot get somewhere with that issue. Address that, would you 
please?
    Mr. Udall. Thank you, Senator, for pointing out that 
challenge and I think that opportunity. I have been working on 
the House side with Congressman McInnis, Congressman Hefley and 
many others, my cousin, Tom Udall from New Mexico, to look at 
fuels reduction programs that would create jobs, create 
healthier forests and avoid what appears to be future 
catastrophic problems we are going to face. Colorado, as 
Senator Campbell knows, is in the midst of a very significant 
drought. We are very worried about what this summer may hold. 
So, I think we were able to look a little bit at the longer 
term.
    Also, if you look at the Wilderness Act, it does allow for 
forest health intervention in certain situations. We made that 
clear to all the parties who were involved, and the legislation 
also alludes to that opportunity if we need to take advantage 
of it.
    But there is a lot of work we could do, I think, in this 
crisis to actually make some good results for particularly our 
rural communities in creating jobs in reducing these fuel loads 
in the forests and then seeing fire returned in a more natural 
setting. We all know as westerners fire plays an important role 
in healthy forests. We just cannot introduce it now because of 
the enormous fuel loads.
    Senator Craig. Well, those are wise and important thoughts 
because I agree with you in that area. At the same time, I 
think all of us recognize unique areas within our public lands 
of our States that deserve protection. Yet, because we 
demonstrated a relative unwillingness to be flexible, it is 
kind of an either/or, and as a result, we did neither. That has 
frustrated so many of us and in many ways affected our 
communities and the economies of those communities. So, 
offering some flexibility is clearly one thing, and I am glad 
you were able to find it and strike a compromise in a way that 
would allow that kind of thing to happen.
    Mr. Udall. Senator, if I might say one other thing. One of 
the reason I think we were also able to work together was the 
immense population pressure we are now feeling in the front 
range area of Colorado. A lot of people believed that we needed 
to act now.
    The good news is in Idaho you do not have quite as many 
people pushing you up against your mountains as we do.
    Senator Craig. Not yet.
    Mr. Udall. But they are coming I think.
    Senator Craig. Yes. They are coming.
    Mr. Udall. Senator Campbell would agree that this was the 
time particularly in this part of Colorado to act.
    Senator Craig. Well, when the Forest Service finds that it 
has to expend more money fire fighting to protect houses than 
trees, that day has already come to the West, and it is there. 
Urban/wildland intermingling or face or front that you all 
experience along the Western range is now very typical across 
the West, and a frustration to all of us. And you are right. 
New Mexico has been burning for a month or two. Arizona is 
afire or has been, and Colorado is well on the way to that. The 
only good news is we have got a little more moisture this year 
than last. Maybe we are going to be exempt. We hope so. But at 
the same time, those problems beg a solution. Thank you.
    Mr. Udall. I hope we will continue to work with you on this 
side of the Hill to ensure that the Forest Service and the 
Interior Department are working together, number one, and 
number two, they are putting these resources and people into 
that red zone, the wildland/urban interface, because there are 
some indications that the money and people have not actually 
been as focused in those areas as we would like. I know you are 
on the case here and we will stay on the case in the Resources 
Committee on our side.
    Senator Craig. That we will. Thank you.
    Senator Wyden. Well, Mark, what you have done--and you can 
see it--is sort of trigger a discussion about a variety of 
questions, not just your very good bill, but the whole question 
of forest health. We had a hearing, really a shocking hearing, 
a couple of days ago looking at what is going on with respect 
to the fire plan. What we tried to do is to break the cycle, 
decades and decades of skewed priorities. We basically have the 
Federal Government dawdle and not do what needed to be done in 
terms of restoration and dealing with fuel buildup. Then you 
would have a huge fire and the Federal Government would rush 
out and try to deal with it. The Congress on a bipartisan 
basis, all of the Western Senators to a person, said we have 
got to be more aggressive in terms of the preventive kind of 
efforts and put more into fuel reduction and restoration. And 
yet, we examined budgets just a couple of days ago, and much of 
the West by a 3 to 1 ratio, more is still being put into just 
rushing to send patriotic Americans out to fight fires rather 
than prevention.
    Now, we are going to have a forest health effort in this 
subcommittee before the end of this year. They said we could 
not do a county payments bill. They said how in the world are 
Larry Craig and Ron Wyden going to agree on county payments. We 
said we are going to figure out a way to get there, and we are 
going to try to do exactly the same thing with respect to 
forest health. There are a number of good ideas out there. It 
is clear you have some good ones. Senator Craig has offered a 
number of very good ones to deal with some of these bizarre 
bureaucratic hoops and requirements that seem to serve 
absolutely no purpose whatsoever. Maybe we ought to take steps 
to deal with thinning and protecting old growth in a kind of 
balanced effort that you obviously have brought to your 
legislation, H.R. 1576. So, we will support you on this. Know 
we are going to call on you as we go forward with a 
comprehensive forest health effort.
    And we will excuse you at this time.
    Mr. Udall. Thank you very much. I appreciate the 
opportunity to appear before you today. I look forward to 
working with you.
    Senator Wyden. Our next panel: the Honorable H.T. Johnson, 
Assistant Secretary for Installations and Environment, U.S. 
Department of the Navy; Gloria Manning, Associate Deputy Chief 
for the National Forest System, U.S. Forest Service; Chris 
Kearney, Deputy Assistant Secretary for Policy and 
International Affairs, U.S. Department of the Interior; and 
Larry Finfer, Assistant Director for Communications, Bureau of 
Land Management, U.S. Department of the Interior; and we also 
have Mr. Randal Bowman, Special Assistant to the Assistant 
Secretary for Fish, Wildlife, and Parks of the Department of 
the Interior.
    Why do we not begin with you, Mr. Johnson. I know there is 
almost a biological imperative to read your statement just word 
for word, but we will put all of it into the record in its 
entirety. And if you could just perhaps summarize your main 
concerns today, just in the interest of time, that would be 
very helpful.

  STATEMENT OF H.T. JOHNSON, ASSISTANT SECRETARY OF THE NAVY 
    (INSTALLATIONS AND ENVIRONMENT), DEPARTMENT OF THE NAVY

    Mr. Johnson. Thank you, sir. I have no desire to read my 
statement.
    Senator Wyden. All right. Three cheers for you.
    Mr. Johnson. We are very pleased to join the other members 
here in talking about Adak. Adak has been a very important part 
of the U.S. Navy and we are ready to transfer it back to the 
Aleuts and also to the Department of the Interior.
    We support the Senate bill and the companion House bill. We 
need these bills to transfer the property. The property we can 
transfer to the Interior Department, but then they need to 
transfer it to the Aleuts. We also need the bill to transfer 
personal property directly to the Aleut Corporation.
    We look forward to transferring the properties very 
quickly. 32,000 acres are ready today to transfer. An 
additional 15,000 will be ready within a year.
    I look forward to answering your questions, Mr. Chairman.
    [The prepared statement of Mr. Johnson follows:]
  Prepared Statement of H.T. Johnson, Assistant Secretary of the Navy 
        (Installations and Environment), Department of the Navy
    Mr. Chairman and members of the Committee, I am H.T. Johnson, 
Assistant Secretary of the Navy (Installations and Environment). I 
appreciate the opportunity to speak to you today on S. 1325.
                   navy supports s. 1325 & h.r. 4546
    S. 1325 would ratify an agreement signed in September 2000 by The 
Aleut Corporation (TAC), the Department of the Navy (DON), and the 
Department of Interior (DoI) to exchange land and related personal 
property. Similar language is included in Section 2863 of H.R 4546. The 
differences between the two bills are not significant to the DON, and 
we would support either one.
    This legislation is the critical enabler that would allow Navy to 
dispose of property that comprised the former Naval Air Facility Adak 
(NAF Adak), Alaska, which was closed as a result of the 1995 round Base 
Realignment and Closure (BRAC). It would promote economic reuse of the 
developed portions of the base by native Alaskans, while enhancing the 
Alaska Maritime National Wildlife Refuge. I urge your support of this 
legislation. Its enactment this year will permit timely implementation 
of the land conveyance it authorizes.
    Let me share a bit of background about the Navy's presence at Adak, 
some details of the transfer agreement, and Navy's efforts to complete 
environmental cleanup and promote economic reuse.
                        naval air facility, adak
    Adak Island has been federal property since the United States 
acquired Alaska from Russia in 1867. Since 1913 it has been a federal 
wildlife refuge. In 1980, all of Adak Island was included within the 
Alaska Maritime National Wildlife Refuge established by Congress in the 
Alaska National Interest Lands Conservation Act (ANILCA), and it 
remains part of that wildlife refuge today.
    Military presence on Adak began during World War II with its use 
[occupation] as a staging area to mount a counteroffensive to dislodge 
the Japanese from Attu and Kiska Islands. Navy presence at Adak was 
officially recognized by Public Land Order 1949, dated August 19, 1959, 
which withdrew the northern portion of Adak Island, comprising about 
76,800 acres, for use by the Navy for military purposes. 
Notwithstanding that withdrawal, the property remains part of the 
wildlife refuge. Navy used the base to conduct a variety of Cold War 
era military activities.
    Naval Air Facility Adak was on the list of DoD installations 
recommended for closure in 1995, and that recommendation became final 
when Congress did not disapprove the list. The active Navy mission 
ceased and the base operationally closed in March 1997. Since then, the 
Navy has been doing environmental cleanup and property disposal 
activities.
    In most cases, closing military bases have been located within or 
near established communities and the affected local governments usually 
form a local redevelopment authority to plan and implement reuse. Adak 
was located in the unorganized borough of Alaska. It was not near to or 
part of a local community or within the jurisdiction of any political 
subdivision of the state. The Adak Reuse Corporation (ARC) was 
organized as a not-for-profit corporation under State of Alaska law, 
and its membership included a range of interests in the region. The ARC 
was recognized by DoD as the Adak local redevelopment authority, and 
continues to act in that capacity.
    In carrying out its responsibilities at closing bases, Navy seeks 
to achieve a number of goals:

  <bullet> Close bases quickly, but in a manner that will preserve 
        valuable assets to support rapid reuse and redevelopment.
  <bullet> Give high priority to local economic development when 
        disposing of available real and personal property.
  <bullet> Put available property to productive use as quickly as 
        possible through leases and conveyances to spur rapid economic 
        recovery and reduce caretaker costs.
  <bullet> Fast-track environmental cleanup by removing needless delays 
        while protecting human health and the environment.
  <bullet> Make every reasonable effort to assist the local 
        redevelopment authority in obtaining the available personal 
        property needed to implement its redevelopment plan.
  <bullet> Coordinate Federal resources to assist community economic 
        recovery.

    Navy has worked hard to apply these philosophies to the unique 
circumstances at Adak. Let me briefly outline what we have done.
                             land exchange
    Early in the closure process, TAC expressed interest in exchanging 
some of its Alaska Native Claims Settlement Act (ANCSA) real property 
interests for property at Adak. The DoI sought opportunities to enhance 
the wildlife refuge. The resulting framework is that the Navy would 
relinquish the withdrawn lands comprising the former NAF Adak to DoI, 
who would then convey approximately 47,150 acres on Adak to TAC in 
exchange for TAC relinquishing an equal amount of TAC Native Land 
Selections and entitlement under the Alaska Native Claims Settlement 
Act. In September 2000, DON, DoI and TAC signed an Agreement that sets 
forth terms and conditions of an eventual exchange under which TAC will 
obtain title to approximately 47,150 acres of the former Adak military 
reservation, as well as all of the remaining Navy personal property.
    Because Adak is within the wildlife refuge, special legislation 
from Congress embodied in S. 1325 and H.R. 4546 is needed to convey 
Adak property to TAC, a non-federal party, who will use it for non-
refuge purposes.
    This exchange benefits all parties. The property occupied by the 
former NAF Adak has well over $1 billion invested in numerous 
buildings, improvements and personal property associated with its 
former military mission. Thus, TAC benefits by acquiring all of the 
developed portions of the island. Everything is in place to stimulate 
economic reuse, create jobs and establish a community on Adak.
    Without the exchange, the property would revert to DoI as a 
wildlife refuge. However, the developed portion of the base would 
present a liability for DoI and compromise its value as a wildlife 
habitat. The exchange benefits Interior by providing it with equivalent 
wildlife habitat, along with important conservation safeguards on 
portions of land to be transferred to TAC.
    The Navy benefits by terminating the land withdrawal of the largest 
single portion of BRAC real estate in a manner that enables the 
remaining infrastructure to be productively reused rather than being 
demolished at significant additional expense to be suitable for 
reversion to a wildlife refuge.
    U.S. taxpayers benefit by enhancing opportunities for productive 
use of the infrastructure constructed and supporting personal property 
acquired at taxpayers' expense, while enhancing the wildlife refuge in 
Alaska.
                         environmental cleanup
    In addition to the legislation, completing the conveyance of Adak 
property to TAC also requires the Navy to clean up environmental 
contamination and certify that we have taken all remedial action 
necessary to protect human health and the environment with respect to 
any hazardous substances. In partnership with the State of Alaska 
Department of Environmental Conservation (ADEC) and the U.S. 
Environmental Protection Agency (EPA) we have made great strides toward 
that goal. Since early 1996 there has been an active Adak Restoration 
Advisory Board, comprised of interested stakeholder representatives and 
members of the public, that has been a primary means of sharing 
information and obtaining public comment on environmental cleanup 
plans. In April 2000, ADEC and EPA concurred in a Record of Decision 
that addressed all chemical and petroleum site issues. All of the 
chemical site remedies, and most of the petroleum site remedies are now 
in place.
    Munitions response at NAF Adak presented a more formidable 
challenge. Military actions there during World War II held the 
potential for widespread unexploded ordnance and scattered munitions 
disposal sites. A project team that includes the Navy, state and 
federal environmental regulators, as well as, the U.S. Fish and 
Wildlife Service, TAC, and the Aleutian/Pribilof Islands Association 
has been addressing unexploded ordnance issues. Extensive ordnance 
investigations in the main developed ``downtown'' core areas were 
completed in 1997 and 1998. Additional investigations of known or 
suspected World War II era range areas and minefield locations have 
been carried out since that time. The Navy, with the concurrence of 
federal and state environmental regulators, signed a Record of Decision 
in December 2001 for all munitions response work on the property to be 
transferred to TAC.
    I am pleased to report that last month, the Navy issued a Finding 
of Suitability to Transfer (FOST) for 32,150 acres of the 47,150 acres 
intended for conveyance to TAC. A FOST for the remaining 15,000 acres 
intended for conveyance to TAC is planned by early 2003, when Navy 
expects to complete ordnance investigation and clearance in that area.
    In addition to the 47,150 acres proposed for conveyance to TAC, 
there are approximately 29,650 additional acres in the Adak military 
public land withdrawal, of which about 25,500 acres are environmentally 
suitable for transfer now. Navy expects to relinquish its public land 
withdrawal on that property to U.S. Fish and Wildlife Service at the 
appropriate time. Navy is still investigating ordnance issues on the 
remaining 4,150 acres, and Navy will retain that property until it is 
found to be safe for other uses. Fences and warning signs are in place 
to control access.
                           facilitating reuse
    The Navy has worked very closely with ARC and TAC to enable reuse 
to move ahead. When the active military mission ended in March 1997, we 
contracted with wholly owned subsidiaries of TAC to protect and 
maintain the facilities and provide services to support Navy 
environmental cleanup activities. This enabled TAC to become familiar 
with the facilities and their operation. When that contract ended in 
September 2000, the Navy funded a grant of $3 million to ARC, 
administered by the Department of Commerce Economic Development 
Administration (EDA), to assist in the transition to local operation of 
the Adak infrastructure in support of reuse. The Congress has provided 
additional financial support each year.
    In June 1998, we entered into a lease with ARC authorizing them to 
use or sublease virtually the entire developed core of the base. That 
lease has enabled a number of reuse activities. The Navy and ARC have 
worked together to ``privatize'' vessel and aircraft fueling 
operations, and to commence rental housing operations. ARC subleased 
space to Adak Seafoods, which subsequently became Adak Fisheries. They 
began fish processing operations in a waterfront warehouse in early 
1999 and continue in operation today, with an on-island workforce that 
fluctuates seasonally between approximately 50 and 100 people. A public 
school with grades K through 12 has been operating at Adak since the 
fall of 1998. There is also a general store serving the needs of the 
on-island population and visiting ship crews.
    The vote to incorporate a new City of Adak was held on April 3, 
2001, and affirmed the desire of the Adak community to become Alaska's 
western-most City. We are working closely with officials of the new 
City of Adak and they are beginning to take on an important role in 
this overall transition.
                               conclusion
    We have come a long way. The foundation for success is in place. 
The partnerships among the stakeholders is the glue that holds it all 
together, and we appreciate the proactive engagement of the ADEC and 
Department of Commerce EDA in working with all the parties to help 
build solutions to the many obstacles encountered along the way. There 
is still work to do, but the pieces are in place to get there and, most 
importantly, there appears to be a shared sense of purpose to do what 
is needed to succeed.
    Legislation embodied in S. 1325 and H.R. 4546 is the critical 
enabler to conveyance and economic reuse of the former NAF Adak. I urge 
your support for this legislation in this session of Congress.
    Thank you, Mr. Chairman and members of the Committee. I am 
available to respond to any questions you may have.

    Senator Wyden. You get the record for being brief.
    [Laughter.]
    Senator Wyden. And I thank you for it.
    Let us just go right down the row. Yes, sir.

STATEMENT OF RANDAL BOWMAN, SPECIAL ASSISTANT TO THE ASSISTANT 
  SECRETARY FOR FISH, WILDLIFE, AND PARKS, DEPARTMENT OF THE 
                            INTERIOR

    Mr. Bowman. Thank you, Mr. Chairman. I will also try to be 
extremely brief. I am representing the Department of the 
Interior on the Adak legislation.
    With the withdrawal of the Navy at Adak, we had a large 
urban industrial area which could not reasonably be 
rehabilitated for use as a wildlife refuge. We are, therefore, 
extremely pleased that we have been able to negotiate a land 
exchange between the Navy, the Interior Department, and the 
Aleut Corporation which would provide this land to them for use 
as a new village in return for their entitlement to wildlife 
refuge lands of no economic value but considerable wildlife 
value.
    We believe this is a good situation for all parties, and we 
would urge the committee to move promptly on the legislation. 
Thank you.
    [The prepared statement of Mr. Bowman follows:]
 Prepared Statement of Randal Bowman, Special Assitant to the Assitant 
  Secretary for Fish, Wildlife, and Parks, Department of the Interior
    Mr. Chairman, thank you for the opportunity to testify today on S. 
1325, which would ratify a land exchange agreement negotiated between 
the Federal government and The Aleut Corporation concerning the former 
Naval Air Facility, Adak, and much of the surrounding military 
withdrawal on the remote Adak Island in the Aleutian Chain of Alaska.
    After five years of negotiations, The Department of the Interior, 
the Department of the Navy, and The Aleut Corporation signed a land 
exchange agreement in September of 2000. This Agreement has 
subsequently been renewed twice. Legislation ratifying the signed 
agreement is necessary to remove the former Naval Complex from the 
National Wildlife Refuge system. Legislation would also resolve several 
legal issues regarding the conveyance of real and personal property.
    Adak Island was withdrawn in 1913 as a wildlife preserve and in 
1940 designated a National Wildlife Refuge. In 1959, the Secretary of 
the Interior withdrew and reserved the northern portion of the island 
for use by the Navy for military purposes in Public Land Order No. 
1949. In 1980, the Alaska National Interest Lands Conservation Act 
incorporated Adak Island, and other refuge islands, as part of the new 
Alaska Maritime National Wildlife Refuge. The Naval Air Facility, Adak, 
was operationally closed in March 1997 under the Base Realignment and 
Closure procedures. The Navy will request revocation of the Public Land 
Order as the final part of its base closure and cleanup.
    At its peak, the Navy-built infrastructure on Adak could support a 
small city of about 6,000 people. The Naval Complex is also a ``Super 
Fund Site'' with more than 96 contaminated sites. The Navy has 
acknowledged responsibility for cleanup and is currently taking 
remedial actions. However, it is unlikely that the intensively used 
area could be suitably rehabilitated for use as a wildlife refuge.
    After the base closure announcement was made, The Aleut Corporation 
offered to exchange a portion of its Alaska Native Claims Settlement 
Act entitlement, elsewhere in the Aleutian Islands, for the northern 
portion of Adak Island occupied by the Naval Complex. With the 
exception of cemetery and historic sites, Adak Island was not available 
for selection under the 1971 Alaska Native Claims Settlement Act.
    The outline of a basic exchange agreement was negotiated by the 
Fish and Wildlife Service, the Navy and The Aleut Corporation in 
December 1996. This agreement involved an unequal value exchange of 
about 47,000 acres of The Aleut Corporation's Alaska Native Claim 
Settlement Act entitlement for an equal number of acres including the 
improvements on the Adak Naval Complex. Negotiations were complex and 
required the resolution of issues such as indemnification, long-term 
responsibility for demolition and cleanup of the buildings not needed 
for reuse, actual exchange boundaries, the status of the Fish and 
Wildlife Service's administrative facilities on Adak and The Aleut 
Corporation's desire for an immediate master lease on Adak to start 
reuse prior to completion of an exchange agreement. In March of 1998, a 
hearing was held before the Senate Committee on Energy and Natural 
Resources. Several weeks after the hearing the Navy announced they had 
discovered archival evidence from World War II of additional unexploded 
ordnance (UXO). The discovery stalled negotiations and started a 
intensive ordnance and explosives cleanup on the island.
    In September 2000, with ordnance and explosives cleanup underway 
and several significant issues regarding exchange boundaries resolved, 
the Parties signed an exchange agreement. This agreement has been 
renewed twice and is currently valid until December 31, 2002. 
Additionally, The Aleut Corporation is trying to establish viable 
businesses and a community on the island. The city of Adak was 
incorporated as a second-class city by the State of Alaska in spring of 
2001. In March 2002, the Navy announced that the last uniformed Navy 
personnel had left the island. The Navy has recently signed a Finding 
of Suitability for Transfer for 32,150 acres of lands included in the 
agreement. Cleanup will continue this summer on the remainder (15,000 
acres) of the exchange lands and presumably a Finding of Suitability 
for Transfer for this remainder can be finalized in 2003. It should be 
noted that the decision point for the Aleut Corporation in the signed 
agreement is 90 days after EPA concurs with the Finding of Suitability 
for Transfers signed by the Navy for the remainder of the exchange 
lands.
    By our actions over the last seven years, the Service has clearly 
demonstrated our commitment in helping The Aleut Corporation reuse the 
former Adak Naval Air Facility. We are willing to have lands with 
improvements on Adak removed from the Alaska Maritime National Wildlife 
Refuge in exchange for undeveloped land elsewhere in the Aleutians. We 
want the community of Adak to succeed. Like the Aleuts, the Alaska 
Maritime National Wildlife Refuge has a long-term commitment in the 
Aleutians. For years, the Navy presence on Adak facilitated our 
management activities in the Aleutians. We maintain a refuge subunit 
headquarters on the island and have used Adak as a resupply port for 
our 120 foot research vessel. We will continue working in the Aleutians 
and with the community of Adak.
    We recognize both The Aleut Corporation's desire to profitably 
convert the considerable infrastructure on Adak to a successful new 
community as well as their reluctance to expose their corporation to 
financial risk. Therefore The Aleut Corporation, not the Federal 
Government, must make their final decision as to whether a land 
exchange involving Adak is in the best interest of the corporation and 
its shareholders.
    In the end a land exchange involving national wildlife refuge lands 
must also benefit, or at least not harm, the National Wildlife Refuge 
system. Therefore, we support the approach S. 1325 takes of ratifying a 
completed exchange agreement between the Federal Government and The 
Aleut Corporation. We have negotiated a good agreement that gives The 
Aleut Corporation considerable land and facilities on Adak in exchange 
for their entitlement to other Aleutian islands valuable as wildlife 
habitat.

    Senator Wyden. This is very good. This is going to be the 
shortest panel in history.
    Let me welcome Ms. Gloria Manning.

 STATEMENT OF GLORIA MANNING, ASSOCIATE DEPUTY CHIEF, NATIONAL 
                FOREST SYSTEM, FOREST SERVICE, 
                   DEPARTMENT OF AGRICULTURE

    Ms. Manning. Unfortunately, I am not going to be quite as 
short. I have three bills to give the Department's view. I am 
Gloria Manning, the Associate Deputy Chief of the National 
Forest System.
    The first one I would like to talk about is S. 1139, 
conveying land to Lander County, Nevada for cemetery use. The 
Department does not object to making additional Federal lands 
available to Lander County for cemetery use. We have already 
conveyed 1.25 acres of land to the county. We did that in 
August 2000 for $500.
    We are required to get fair market value, and we feel that 
we have enough legislation to be able to convey the land to 
Lander County. We were, in August 2000, under the impression 
the county had all of the land it needed for the cemetery. In 
the 1.25 acres of land, only a half acre was needed for the 
graves, and the .75 acre was for future expansion and for 
parking. And if the county needs additional land, we are 
willing to work with them to convey the land within our 
authority to them.
    Senator Campbell. Mr. Chairman, could I interrupt just for 
a moment? I have a conflict and have to leave, but I need to 
ask unanimous consent to introduce a statement for the record 
by Senator Murkowski.
    Senator Wyden. Without objection.
    [The prepared statement of Senator Murkowski follows:]
Prepared Statement of Hon. Frank H. Murkowski, U.S. Senator From Alaska
    I am pleased that in today's subcommittee hearing we are addressing 
a number of the miscellaneous bills that have been pending before the 
Committee. I hope that we will continue to move forward expeditiously 
in clearing many of these important bills for further action by the 
Senate.
    S. 454, which would provide permanent funding for the Bureau of 
Land Management Payment in Lieu of Taxes program, is legislation that 
is badly needed in the rural parts of our country, including Alaska.
    During the 106th Congress, we took action to temporarily address 
the funding shortage under the 25% revenue sharing program by passing 
the Secure Rural Schools and Community Self-determination Act of 2000 
which was sponsored by my colleagues on this Committee, Senators Craig 
and Wyden. Now we need to step back up to the plate and address the 
chronic shortfall under the PILT program.
    I would add a cautionary note, however. We need to consider 
carefully what is the best way to address this matter. We have Budget 
and Appropriations committees whose responsibility is to integrate 
programs like this one with other funding needs across the country.
    Turning to Alaska, I appreciate Chairman Wyden's willingness to 
include S. 1325 in today's hearing. S. 1325 ratifies an agreement 
between the Department of the Navy, the United States Fish and Wildlife 
Service and the Aleut Corporation to exchange lands within the Alaska 
Maritime National Wildlife Refuge.
    Since 1901, there has a been a military presence on the island of 
Adak, far out in the Aleutian Chain. In 1959, the Naval Station at Adak 
was established by a military withdrawal of nearly half the island. The 
withdrawal made Adak unavailable for selection by the Aleut Corporation 
when it was formed under the Alaska Native Claims Settlement Act of 
1971.
    The Naval Complex was closed in 1997 as a result of the Defense 
Base Closure and Realignment Act of 1990. Since that time, the Navy, 
the Fish and Wildlife Service and the Aleut Corporation have been in 
negotiations to decide the disposition of the lands and property. They 
were able to craft a solution that is beneficial to all parties and 
signed an agreement in September of 2000.
    In summary, the agreement provides for 47,150 acres to be conveyed 
to the Aleut Corporation. In return, the Aleut Corporation will 
relinquish an equal number of acres of its prioritized selections. In 
addition, the Aleut Corporation will irrevocably prioritize its land 
conveyance schedule and relinquish over-selections according to a 
specific, established timetable. Lands relinquished by the Aleut 
Corporation and lands associated with the Naval Complex not conveyed to 
the Aleuts would return to refuge management under the FWS.
    This bill is win-win-win. The Navy, the Fish and Wildlife Service 
and the Aleut Corporation all come out ahead. I understand there is no 
known opposition to getting this deal completed. I had the opportunity 
to visit Adak two years ago and was amazed at the infrastructure on the 
island. I am glad to have the witnesses from the Navy and the 
Department of the Interior here today to discuss this legislation and I 
look forward to hearing their testimony.
    Again, I appreciate the willingness of the Subcommittee Chairman to 
allow me to include a full Committee item in today's hearing. I regret 
we could not have scheduled two other measures that these same 
witnesses could have provided testimony for.

    Senator Campbell. Thank you. Thank you, Ms. Manning.
    Ms. Manning. As I said, just to reiterate, we are willing 
to work with the town to identify additional needs and work 
with conveying land to them within our authority.
    The next two bills I would like to talk about are S. 1711 
and H.R. 1576, designating the James Peak Wilderness and 
Protection Areas. The Department does not object to either 
bill. We feel, however, that under our present management and 
authority, we can provide a lot of the protection that is 
required under this bill, but we do not object to your making a 
formal designation for the acreage.
    With that, I am available for questions.
    [The prepared statement of Ms. Manning follows:]
Prepared Statement of Gloria Manning, Associate Deputy Chief, National 
        Forest System, Forest Service, Department of Agriculture
    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear before you today. I am Gloria Manning, Associate 
Deputy Chief for National Forest System, USDA Forest Service. I am here 
today to provide the Department's views on three bills: S. 1139, a bill 
to direct the Secretary of Agriculture to convey certain lands to 
Lander County, Nevada for continued cemetery use and S. 1711 and H.R. 
1576, bills to designate the James Peak Wilderness and James Peak 
Protection Area in the Arapaho and Roosevelt National Forests.
s. 1139 convey certain land to lander county, nevada for continued use 
                             as a cemetery
    In summary, Section 1 of S. 1139 requires the Secretary through the 
Chief of the Forest Service to convey to Lander County, Nevada, for no 
consideration, all right, title, and interest of the United States in 
and to the 10 acres of National Forest System land known as Kingston 
Cemetery.
    In accordance with Public Law 85-569, the Townsite Act, we have 
already conveyed 1.25 acres of land (on which the cemetery is located) 
to the Town of Kingston for $500 on August 1, 2000. At the time of the 
conveyance, the Town of Kingston indicated the 1.25 acres encompassed 
all known marked and unmarked gravesites. The Town of Kingston also 
indicated that the 1.25 acres was adequate to accommodate their future 
expansion needs. Specifically, all of the gravesites were accounted for 
within a half acre fenced area that the 1.25 acres encompassed. The 
additional .75 acres were intended for parking and anticipated 
expansion of the current cemetery.
    If new unmarked gravesites have been discovered or the needs of the 
Kingston Cemetery have changed and are in the public interest, we would 
be supportive of making additional Federal lands available to the 
county or city for fair market value and granting the county an 
easement to maintain the access road to the cemetery as a county road.
    If Lander County is not willing to pay fair market value to 
purchase this land, we would be willing to consider authorizing its 
current and future use of this land under a special-use permit 
authorization.
    The Department does not object to making additional Federal lands 
available to Lander County, Nevada in S. 1139, but the Department 
believes that the Forest Service can meet the objectives of Section 1 
of this legislation under its current statutory authorities that would 
allow it to convey National Forest System lands to Lander County for 
land or fair-market value in cash.
    For example, under the Townsite Act, the Secretary of Agriculture 
may convey, for fair market value, up to 640 acres of land to 
established communities located adjacent to National Forests in Alaska 
or the contiguous western states. Within certain limits, the Sisk Act 
authorizes the Secretary of Agriculture to exchange lands with states, 
counties, or municipal governments or public school districts for lands 
or money.
    Moreover, under the General Exchange Act, the Secretary of 
Agriculture can exchange National Forest System lands with State and 
local governments. These laws require the Secretary of Agriculture to 
obtain fair market value for exchanges or sales of National Forest 
lands. Indeed, the Federal policy, in recent decades has moved toward 
obtaining a fair return to the public for the value of lands conveyed 
out of Federal ownership.
s. 1711/h.r. 1576 to designate the james peak wilderness and protection 
                                  area
    The Department does not object to S. 1711 and H.R. 1576, bills that 
would designate the James Peak Wilderness and the James Peak Protection 
Area in the Arapaho and Roosevelt National Forests in Colorado.
    In summary, S. 1711 and H.R. 1576 designate a wilderness area and a 
protection area. In addition, S. 1711 and H.R. 1576 address acquisition 
of State and private lands within the protection area, direct the 
Forest Supervisor to construct a trailhead in the Fall River basin, and 
provide for technical assistance to local governments in repairing 
Rollins Pass Road.
    Both bills would designate approximately 14,000 acres of land 
within the Arapaho and Roosevelt National Forests as the James Peak 
Wilderness and add approximately 2,232 acres of the Arapaho and 
Roosevelt National Forests known as the Ranch Creek Addition to the 
Indian Peaks Wilderness.
    Another 963 acres of the Arapaho and Roosevelt National Forests, 
known as the Fourth of July Addition, would also be added to the Indian 
Peaks Wilderness.
    The bills would designate 16,000 acres of the Arapaho and Roosevelt 
National Forests as the James Peak Protection Area. Except as otherwise 
provided in the legislation, this area would be managed consistent with 
the direction established in the 1997 Revised Land and Resource 
Management Plan (LRMP) for the Arapaho and Roosevelt National Forests.
    In addition, the bills require the Secretary to:

  <bullet> Review and inventory all roads and trails in the Protection 
        Area, no later than 2 years after the date of enactment, and 
        restrict the use of motorized and mechanized travel to 
        designated routes within the Protection Area.
  <bullet> Make recommendations to Congress concerning the suitability 
        of lands within the Special Interest Area for inclusion in the 
        National Wilderness Preservation System.
  <bullet> Conduct a study, not later than three years after funding, 
        of the suitability and feasibility of establishing a loop trail 
        for mechanized and other non-motorized recreation connecting 
        Rogers Pass and Rollins Pass road. If the study indicates 
        suitability and feasibility, the Secretary shall establish the 
        loop trail;
  <bullet> Prepare a report concerning the status of negotiations and 
        acquisition of inholdings within the Protection Area. The 
        Secretary may only acquire inholding within the Protection Area 
        on a willing seller basis.
  <bullet> Establish a trailhead in the Fall River basin and assign 
        personnel to manage the use of National Forest System land in 
        the Fall River basin south of the communities of Alice and St. 
        Mary's Glacier, and prepare a report to Congress identifying 
        the funding needed to implement this section.

    S. 1711 and H.R. 1576 further state that the designation of 
wilderness areas and the Protection Area shall not establish buffer 
zones around those areas. The bills also direct the Secretary, upon 
request, to provide counties technical assistance and otherwise 
cooperate with respect to repairing Rollins Pass road. If repairs are 
completed, the Secretary is to close to motorized travel the roads and 
trails shown on the Rollins Pass road and trail closure map.
    The 1997 Revised Land Management Plan recommended wilderness 
designation for the Ranch Creek Addition and Fourth of July Addition to 
the Indian Peaks Wilderness. The proposed James Peak Wilderness was not 
recommended for wilderness designation in the forest plan.
    In addition, the forest plan provides direction under which 
concerns regarding travel management and dispersed recreation use can 
be addressed in the Rollins Pass, Rogers Pass, and Fall Creek basin 
areas.
    While we believe the LRMP sufficiently protects the resource values 
in the proposed James Peak Wilderness and Protection Areas, we do not 
object to the additional designations contained in the bills.
                               conclusion
    This concludes my statement; I would be happy to answer your 
questions.

    Senator Wyden. Thank you.
    Mr. Finfer.

       STATEMENT OF LARRY FINFER, ASSISTANT DIRECTOR FOR 
 COMMUNICATIONS, BUREAU OF LAND MANAGEMENT, DEPARTMENT OF THE 
                            INTERIOR

    Mr. Finfer. Thank you, Mr. Chairman. I am here to testify 
on S. 1139, S. 1497, and H.R. 2385, and S. 1907.
    The Department of the Interior supports each proposal, but 
would like the opportunity to work with the sponsors of the 
bills and the committee on minor and technical amendments.
    S. 1139 provides for the conveyance of two cemeteries in 
Nevada. I will confine my comments to section 2 of the bill and 
defer to the Forest Service on section 1.
    We support section 2 which provides for the conveyance of 
Maiden's Grave Cemetery near Beowawe, Nevada to Eureka County. 
Approximately 10 acres would be conveyed and maintained as a 
cemetery. In addition, the BLM would be required to grant 
access. We would like the opportunity to work with Senator Reid 
and the committee to address minor technical issues, including 
modifications to the reversionary clause, timing on the 
transfer of the lands, access route, and mineral estate.
    S. 1497 and the identical H.R. 2385 as passed by the House 
allow the Secretary to award a grant to the city of St. George, 
Utah for up to $500,000 for the acquisition of 10 acres on 
private land on which dinosaur tracks have been discovered. The 
grant will allow the city to purchase the land in order to 
preserve it and protect it for the public. The administration 
supported with amendments H.R. 2385 last year.
    We would like the opportunity to work with Senator Hatch 
and the committee to resolve some minor technical issues, 
including map revisions, and our recommendation to consider 
several additional alternatives for financial assistance, for 
example, the establishment of a nonprofit foundation perhaps 
involving the State, the county, and the city of St. George to 
leverage and partner resources to help maintain the site.
    S. 1907 directs the Secretary of the Interior to convey, 
without payment, to the city of Haines, Oregon a 40-acre parcel 
adjacent to its landfill. The intent of the legislation is to 
provide Haines with a source of topsoil as cover material for 
the landfill and allow for its closure. We support the bill.
    In order to make the conveyance as smooth as possible, we 
would like the opportunity to work with you, Mr. Chairman, with 
Senator Smith and the committee on minor technical amendments 
such as a more precise map to avoid any confusion over the 
exact parcel to be transferred.
    Mr. Chairman, although these bills involve diverse 
resources in different places, our support for them is based on 
a common thread, that is simply the desire to be a good 
neighbor and to work with our community partners.
    That concludes my testimony, Mr. Chairman.
    [The prepared statement of Mr. Finfer follows:]
      Prepared Statement of Larry Finfer, Assistant Director for 
 Communications, Bureau of Land Management, Department of the Interior
    Thank you for the opportunity to testify on section 2 of S. 1139 
regarding the conveyance of a cemetery to Eureka County, Nevada, S. 
1497 and H.R. 2385 to provide for the protection of dinosaur footprints 
in St. George, Utah and S. 1907 to convey a parcel of land to the city 
of Haines, Oregon. The Department of the Interior supports S. 1497, 
H.R. 2385, S. 1907 and section 2 of S. 1139 as it affects the Bureau of 
Land Management, but would like the opportunity to work with the 
sponsors of the bills and the Committee on minor and technical 
amendments.
                                s. 1139
    S. 1139 provides for the conveyance of two cemeteries in Nevada to 
Lander and Eureka counties. I will confine my comments to section two 
of the bill and defer to the Forest Service on section one. The BLM 
supports section two of S. 1139 which provides for the conveyance of 
the ``Maiden's Grave Cemetery'' near Beowawe, Nevada (Bay-o-wah'-wee) 
to Eureka County, Nevada. Approximately 10 acres would be conveyed to 
the county which would maintain the area as a cemetery. In addition, 
the Bureau of Land Management (BLM) would be required to grant access 
to the cemetery across adjacent public land.
    ``The Maiden's Grave'' is the final resting place of Lucinda Duncan 
who on August 15, 1863, died on her way to the gold and silver fields 
of Nevada. Mrs. Duncan at 71 was ``the mother of the wagon train'' 
which consisted largely of her seven surviving children, their spouses 
and a multitude of grandchildren. Following her death, the wagon train 
held a ceremony and their leaving was memorialized by a member of the 
party:

          ``. . . we paid our last debt & respect to the remains of the 
        departed mother. There upon that wild & lonely spot, we left 
        her, until Gabriel shall sound his trumpet in the last day. The 
        scene was truly a sad one to leave a beloved mother on the wild 
        and desolate plains. A board with the name of the deceased was 
        put up at the head & boulder was laid over the grave to keep 
        wolves from scratching in it. After this the train moved on.''

    Today, the site continues to receive occasional burials. Therefore, 
it is considered a ``modern cemetery'' and does not qualify for the 
National Register of Historic Places. The BLM, through its planning 
process, has identified the cemetery as suitable for disposal and the 
county has indicated a strong interest in taking responsibility for 
this parcel.
    This transfer would meet the unique needs of the county and is 
supported by the BLM's local field managers. We appreciate this 
opportunity to work cooperatively with local interests to the 
betterment of the community.
    We would like the opportunity to work with Senator Reid and the 
Committee to address technical issues including: modifications to the 
reversionary clause, clarification of timing on the transfer of the 
lands, specificity on the access route, and to assure that the mineral 
estate is conveyed along with the land.
                         s. 1497 and h.r. 2385
    S. 1497 and the identical H.R. 2385 as passed by the House, allow 
the Secretary of the Interior to award a grant to the City of St. 
George, Utah of up to $500,000 for the acquisition of 10 acres of 
private land on which dinosaur tracks have been discovered. The grant 
would allow the city to purchase this land in order to preserve and 
protect it for the public. The Administration supported, with 
amendments, H.R. 2385 in July of last year.
    The discovery of these tracks within the City of St. George is 
unique and represents a potential focus for local interpretive and 
preservation efforts. The State of Utah has some of the most 
concentrated and significant paleontological resources of any region of 
the country.
    The Administration stands ready to assist in the implementation of 
this project to protect these rare resources in partnership with local 
community partners in St. George. We recognize the significance and 
importance of these dinosaur tracks to the community and the residents 
of Washington County. We applaud their efforts to secure these tracks 
and protect them from further disturbance and deterioration so that 
they might be shared with the public.
    The BLM would like the opportunity to work with Senator Hatch and 
the Committee to resolve a few specific issues including map revisions 
and other minor matters.
    Section c(2)(A) of S. 1497 provides for additional financial 
assistance grants to the City to protect and manage the dinosaur tracks 
site. We recommend the consideration of several alternatives for 
financial assistance so as not to impede existing programs and their 
funding levels in the BLM's St. George area, while still providing for 
appropriate management of the dinosaur tracks site. For example, the 
establishment of a non-profit foundation, perhaps involving the State 
of Utah, Washington County, and the City of St. George to leverage and 
partner resources is an option. In addition, other forms of assistance 
through private and public grants, including the Secretary's new 
Cooperative Conservation Initiative (CCI), may provide numerous 
resources for providing for the long term operations, maintenance, and 
educational interpretation of the site.
                                s. 1907
    S. 1907 directs the Secretary of the Interior to convey, without 
payment, to the City of Haines, Oregon a 40 acre parcel of land 
adjacent to the Haines, Oregon landfill. The intent of the legislation 
is to provide Haines with a source of topsoil as cover material for the 
landfill and allow for its closure, the BLM supports the bill.
    This 40 acre parcel of BLM land has been identified for disposal by 
the BLM in the June 1998 Northeast Oregon Assembled Land Exchange final 
environmental impact statement. The 40 acre site is immediately 
adjacent to the Haines landfill and is largely isolated. Under current 
law, the BLM would be required to charge full market value, and 
therefore the legislation is needed. The BLM believes that this is a 
worthwhile proposal which allows the BLM to be a good neighbor.
    In order to make this conveyance as smooth as possible, we would 
like the opportunity to work with Senators Smith and Wyden and the 
Committee on a technical amendment to address speedy transfer of the 
lands. In addition, in order to avoid any confusion over the exact 
parcel of land to be transferred, we request that the legislation be 
modified at markup to reference a new map created to specifically 
address this transfer. We believe that this will reduce confusion and 
assure proper transfer of the intended parcel to the City of Haines, 
Oregon.
                               conclusion
    Thank you for the opportunity to testify on these three bills. I am 
happy to answer any questions the members of the Committee may have.

    Senator Wyden. Very good.
    Mr. Kearney.

  STATEMENT OF CHRIS KEARNEY, DEPUTY ASSISTANT SECRETARY FOR 
               POLICY AND INTERNATIONAL AFFAIRS, 
                   DEPARTMENT OF THE INTERIOR

    Mr. Kearney. I will try to conclude on a positive note and 
be brief as well, Mr. Chairman.
    Mr. Chairman, I am pleased to have the opportunity today to 
testify on S. 454, a bill to make the Bureau of Land 
Management's Payments in Lieu of Taxes program and the Fish and 
Wildlife Service's Refuge Revenue Sharing program mandatory. 
The administration strongly supports the PILT and RRS programs 
and views them as high priorities, but the administration is 
strongly opposed to S. 454 because it would force the Federal 
Government to either raise taxes or cut into other programs 
that are integral to the President's budget.
    The President's fiscal year 2003 budget request 
demonstrates our commitment to PILT. The administration 
requested $150 million for fiscal year '02, and this year the 
administration is requesting $165 million, an increase of $15 
million that is more in line with historical PILT funding 
levels.
    The Refuge Revenue Sharing Act, as amended, was enacted in 
1935. It authorizes payments to be made to offset tax losses to 
counties in which the U.S. Fish and Wildlife Service fee and 
withdrawn public lands are located. Counties can use the funds 
for any governmental purpose and can pass through the funds to 
lesser units of local government within the county that 
experiences a reduction of real property taxes as a result of 
the existence of Service fee lands within their boundaries. 
Counties with Service lands that are withdrawn from the public 
domain continue to receive 25 percent of the receipts collected 
from the area and paid under the provisions of the PILT Act.
    I would like to note that many of the same concerns we have 
expressed regarding PILT funding hold true for RRS funding as 
well. Moreover, we believe it would be prudent to take another 
look at the PILT and RRS formulas, authorization levels, and 
other issues including those raised in the Department's report 
to Congress dated January 11, 1999 before considering such a 
significant action as converting these payments to permanent 
mandatory payments.
    In conclusion, the administration recognizes that these 
payments are important to local governments, often compromising 
a significant portion of their operating budget. The PILT and 
RRS monies have been used for critical functions such as local 
search and rescue operations, road maintenance, law 
enforcement, schools, and emergency services. These activities 
are often undertaken in support of people from around the 
country who visit or recreate on Federal lands. The BLM and the 
Fish and Wildlife Service and all of us at the Department look 
forward to continuing to work cooperatively with communities on 
these important issues.
    This concludes my statement. I will be happy to answer any 
questions.
    [The prepared statement of Mr. Kearney follows:]
  Prepared Statement of Chris Kearney, Deputy Assistant Secretary for 
      Policy and International Affairs, Department of the Interior
    Mr. Chairman and members of the Committee, I am pleased to have the 
opportunity to testify today on S. 454, a bill to make the Bureau of 
Land Management's (BLM) Payments-in-Lieu of Taxes (PILT) Program and 
the Fish and Wildlife Service's Refuge Revenue Sharing (RRS) Program 
mandatory. The Administration strongly supports the PILT and RRS 
programs and views them as high priorities, but the Administration is 
strongly opposed to S. 454 because it would force the Federal 
Government to either raise taxes or cut into other programs that are 
integral to the President's budget.
                               background
    The PILT Act (P.L. 94-565) was passed by Congress in 1976 to 
provide payments to local governments in counties where certain Federal 
lands are located within their boundaries. PILT is based on the concept 
that these local governments incur costs associated with maintaining 
infrastructure on Federal lands within their boundaries but are unable 
to collect taxes on these lands; thus, they need to be compensated for 
these costs. The payments are made to local governments in lieu of tax 
revenues and to supplement other Federal land receipts shared with 
local governments. The amounts available for payments to local 
governments require annual appropriation by Congress. The BLM allocates 
payments according to the formula in the PILT Act. The formula takes 
into account the population within an affected unit of local 
government, the number of acres of eligible Federal land, and the 
amount of certain Federal land payments received by the county in the 
preceding year. These payments are other Federal revenues (such as 
receipts from mineral leasing, livestock grazing, and timber 
harvesting) that the Federal Government transfers to the counties.
    The President's FY 2003 budget request demonstrates our commitment 
to PILT. The Administration requested $150 million for FY 2002 for 
PILT, and this year the Administration is requesting $165 million, an 
increase of $15 million that is more in line with historical PILT 
funding levels. Although the FY 2003 budget request appears to indicate 
a downward trend, I would point out that most counties (and their 
respective states) also receive significant and growing benefits from 
Federal lands. Many of the counties that receive PILT funding receive 
other Federal payments that have recently or will soon increase 
substantially. For example, the Secure Rural Schools and Community 
Self-Determination Act passed in 2000 provides for permanent payment of 
an additional roughly $110 million annually to western Oregon 
counties--approximately the amount the counties received during the 
mid-1980s peak of timber production in the Northwest. I would also 
point out that the Federal government covers many of the costs that the 
counties would otherwise incur if the land were not in Federal 
ownership.
    The Refuge Revenue Sharing Act (16 U.S.C. 715s), as amended, was 
enacted in 1935. It authorizes payments to be made to offset tax losses 
to counties in which U.S. Fish and Wildlife Service (FWS) fee and 
withdrawn public domain lands are located. The original Act provided 
for 25 percent of the net receipts from revenues from the sale or other 
disposition of products on 2 refuge lands to be paid to counties. The 
Act was amended in 1964 to make it more like the payment-in-lieu of tax 
program. The new provisions distinguished between acquired lands that 
are purchased by the Service and lands that are withdrawn from the 
public domain for administration by the Service. For fee lands, the 
counties received 3/4 of 1 percent of the adjusted value of the land or 
25 percent of the net receipts, whichever was greater, with the value 
of the land to be reappraised every 5 years. They continued to receive 
25 percent of the net receipts collected on the withdrawn public domain 
lands in their county.
    The Act was amended again in 1978 in order to provide more 
equitable payments to counties with lands administered by the Service 
within their boundaries. The method used to determine the adjusted cost 
of the land acquired during the depression years of the 1930's (using 
agricultural land indices) resulted in continuing low land values 
compared to the land prices that existed in 1978. Also, other lands 
that were purchased during periods of inflated land values were found 
to be overvalued. The Congress decided that the payments did not 
adequately reflect current tax values of the property. It also 
recognized that national wildlife refuges are established first and 
foremost for the protection and enhancement of wildlife and that many 
produce little or no income that could be shared with the local county.
    In the 1978 amendments, Congress chose to distinguish between lands 
acquired in fee and lands withdrawn from the public domain, by 
recognizing that the financial impact on counties tends to be greater 
when lands are directly withdrawn from the tax rolls, rather than when 
the refuge unit is created out of the public domain and has never been 
subject to a property tax. The formula adopted then, and still in 
effect, allows the Service to pay counties containing lands acquired in 
3 fee the greater of: 75 cents per acre, 3/4 of 1 percent of the fair 
market value of the land, or 25 percent of the net receipts collected 
from the area. If receipts are insufficient to satisfy these payments, 
appropriations are authorized to make up the difference.
    Counties can use the funds for any governmental purpose, and can 
pass through the funds to lesser units of local government within the 
county that experience a reduction of real property taxes as a result 
of the existence of Service fee lands within their boundaries. Counties 
with Service lands that are withdrawn from the public domain continue 
to receive 25 percent of the receipts collected from the area and are 
paid under the provisions of the PILT Act.
    I would like to note that many of the same concerns we have 
expressed regarding PILT funding hold true for RRS funding as well. 
Moreover, we believe that it would be prudent to take another look at 
the PILT and RRS formulas, authorization levels and other issues 
including those raised in the Department's report to Congress dated 
January 11, 1999, before considering such a significant action as 
converting these payments to permanent mandatory payments.
                               conclusion
    The Administration recognizes that these payments are important to 
local governments, often comprising a significant portion of their 
operating budgets. The PILT and RRS monies have been used for critical 
functions such as local search and rescue operations, road maintenance, 
law enforcement, schools, and emergency services. These activities are 
often undertaken in support of people from around the country who visit 
or recreate on Federal lands. The BLM and the FWS look forward to 
continuing to work cooperatively with the communities on these 
important issues.
    Mr. Chairman, this concludes my prepared statement. I would be 
pleased to answer any questions that you or the other members may have.

    Senator Wyden. Let me, before we go to questions, recognize 
my friend and colleague for any opening statement he would like 
to make.

         STATEMENT OF HON. GORDON SMITH, U.S. SENATOR 
                          FROM OREGON

    Senator Smith. Thank you, Mr. Chairman. I am pleased to be 
here in the spirit of our bipartisan working relationship to 
talk about a bill that you and I have jointly authored. It is 
S. 1907. It was mentioned briefly by one of your witnesses. It 
is about providing conveyance of 40 acres of land from the 
Bureau of Land Management to the city of Haines, Oregon.
    For those of you who have never been to Haines, Oregon, you 
are not alone. Very few people have. It is a great little town, 
beautiful by any measure, with a great steakhouse too. So, you 
would be welcome there I am sure.
    The city of Haines is required by the Oregon Department of 
Environmental Quality to establish a closeout plan for its 
landfill located just outside of town. This plan must outline 
specific closure activities that will take place over the next 
50 years as the landfill reaches its natural terminus. One of 
the closure specifications includes coverage of the existing 
refuse site with 3 feet of topsoil.
    However, given the lack of topsoil available to the city on 
its own, the city must seek large quantities of topsoil off 
site. Purchase and transportation costs of off-site topsoil are 
estimated to be in excess of $125,000, an unattainable sum of 
money for a city populated by fewer than 500 citizens.
    Adjacent to the Haines landfill is a 40-acre parcel owned 
by the Bureau of Land Management that offers the city the 
topsoil it needs and eliminates a significant amount of 
transportation costs.
    While the city of Haines has worked extensively with staff 
from the BLM to identify an existing administrative program 
through which the parcel land could be turned over to the 
citizens of Haines, I have been informed that no such program 
has been found.
    In 1999, Congress passed the Northeast Oregon Land Exchange 
Act to allow the BLM to engage in several land exchanges. 
Specifically, small parcels of BLM acreage have been targeted 
for sale to interested parties in an effort to streamline land 
management operations.
    The 40 acres adjacent to the Haines landfill is specified 
as one of these small parcels for exchange. However, due to the 
delays and funding shortfalls, the appraisal work necessary for 
the property to be released for purchase is not scheduled to be 
completed at any time in the near future.
    As you know, Mr. Chairman, our home State of Oregon is 
currently struggling with a faltering economy. Without a 
question, the hardest hit areas of our State are in small towns 
such as Haines. Those citizens can hardly afford to pay the 
high costs of topsoil purchase and transportation needed for 
their landfill.
    The closing of this landfill is an important waste 
management project that must be planned to ensure full 
compliance with health, safety, and environmental standards in 
the region.
    This legislation enables the Federal Government to be a 
good neighbor to an Oregon town that needs its help.
    I might also add that it is this type of legislation that 
serves as a reminder that no matter how small a town or how 
seemingly distant from Washington, D.C., it is never too small 
or too distant to have its case heard and good government 
delivered.
    Thank you, Mr. Chairman, for your support of our bill.
    Senator Wyden. Well said. I share all of the sentiments you 
have offered today, and we will be having some questions for 
Mr. Finfer here in a moment.
    Let me begin, if I might, with you, Mr. Kearney. The 
Payment in Lieu of Taxes program, in the eyes of so many 
westerners, is about fairness. It is an attempt to compensate 
the rural counties for having nontaxable Federal lands within 
the boundaries.
    Now, you oppose S. 454, the legislation that would fully 
fund PILT, and you have been citing a 1999 Department of the 
Interior report. The way I read the report, however, it makes 
the case for Mr. Bingaman's bill, and it essentially undercuts 
your opposition to full funding of PILT. Let me see if I can 
get your reaction on it.
    The report says that even if PILT plus Revenue Sharing was 
fully funded, the counties on average would get less than half 
the property taxes that they otherwise would have received if 
Federal land was taxable. So, in other words, your report--not 
something that Senator Bingaman or I wrote, but your report--
says to me that even if PILT was fully funded, as S. 454 
provides, rural counties would still not be fairly compensated 
in this country.
    So, explain to me, if you would, how your report supports 
your position rather than Senator Bingaman's because when I 
take that report down, I say, shoot, I am going to use the 
administration's argument to make the case for what Chairman 
Bingaman wants to do.
    Mr. Kearney. My understanding, Mr. Chairman, of the 
elements of that report is that it was examining a 
congressional direction and evaluation of the equities 
associated and whether or not the formula associated under the 
current program was adequate and sufficient to ensure the 
dollars were going to the counties, as appropriate. So, the 
context in which I am recommending a review of it, based on my 
understanding by the experts who prepared it and had it 
submitted at the time, was in the context of evaluating the 
existing formula, and that the formula itself, within the 
context of the current process, a discretionary process, needed 
to be evaluated.
    Senator Wyden. The funding formula has not changed.
    Mr. Kearney. Right.
    Senator Wyden. I think you are getting into a completely 
different issue. I will tell you, as I read this 1999 report, 
if I were in your shoes, I would not be waving it around too 
much because I think it makes Senator Bingaman's case and not 
yours.
    Mr. Kearney. I understand.
    Senator Wyden. Who within the administration made the 
decision to oppose full funding of PILT?
    Mr. Kearney. It is the administration's position as 
reflected in the statement. So, it is the administration as a 
whole. There is not an individual. It is the Bush 
administration's position.
    Senator Wyden. Well, but somebody must be taking the lead 
there. I think the President of the United States is kind of 
busy these days, and I do not imagine that he has been involved 
in all the details. Was this the chief or OMB? Somebody had to 
take the lead on it.
    Mr. Kearney. This is the Department of the Interior 
testifying on behalf of the administration. It is the 
administration's position and it is submitted in that context.
    Senator Wyden. On implementation of the program, the money 
for PILT is appropriated at the beginning of each year, but 
when we look at the payment sheets, it indicates that the 
Federal Government does not transfer the money to localities 
until the end of each fiscal year. So, given again that these 
funds are just a lifeline for local governments, why the delay 
in giving the money out?
    Mr. Kearney. It is something that we have looked at and 
know that is a concern. To be honest, I cannot remember 
precisely, but we are either about to or have disbursed dollars 
for this fiscal year, for '02. So, we are doing it ahead of the 
end of the fiscal year, and we recognize that is a problem.
    Senator Wyden. That sounds constructive.
    I will just tell you I strongly support Senator Bingaman's 
bill. I think it is the right thing to do. But as with 
everything else, there may be other ways to do it.
    Will you all go back and get to looking at how we make sure 
we get a fair shake to the West on this? I will tell you, we 
look at some of what is spent on subsidy programs in this 
country. I look even at what is spent in terms of tobacco 
subsidies. I mean, you can go program after program, and it 
just seems to me that this is pretty modest in terms of the 
national budget and the overall level of Federal spending. I 
would like to see us work together to break the cycle.
    I will tell you also this has been true in Democratic 
administrations as well. Nobody is saying anything else. But I 
would like to see us break the cycle here. We have been able to 
do it in other areas. That is what the county payments bill was 
all about. I commend Secretary Veneman and Secretary Norton for 
how they have handled the county payments bill. They have been 
very responsive and have followed through on everything that 
Senator Craig and I have sought as the sponsors of the 
legislation. I think we ought to try to do it on this PILT 
issue as well.
    The fact that you are going to get the money out earlier, 
that is certainly a constructive step, but I think we have got 
to do a lot more than that.
    Mr. Kearney. Yes, sir, Senator.
    Senator Wyden. Mr. Finfer, on to Haines. As you could tell, 
Senator Smith and I feel strongly about it. You have said that 
you want to work with us on a technical amendment involving the 
speedy transfer of land. We are anxious to speed it up. What do 
you want to have in this technical amendment? What do you want 
to see be brought into this?
    Mr. Finfer. Mr. Chairman, I think we could probably work on 
an amendment that would direct with some precision a time frame 
in which the transfer might take place or perhaps something on 
that order. This is a situation we are anxious to help you 
resolve.
    Senator Wyden. So, you think we can come up with an 
approach that will speed up the transfer and that it should not 
be too hard to do.
    Mr. Finfer. That would be our hope and expectation, yes.
    Senator Wyden. Well, let us get your people together with 
the folks from the committee and Senator Smith's folks and 
ours, and let us get this done.
    Mr. Finfer. Yes, sir.
    Senator Wyden. All right, let us see. A question for you, 
Mr. Johnson. The president of the Aleut Corporation said that 
the corporation is not willing to take on the management of the 
airport on Adak Island. He said he is working with the Navy and 
the State of Alaska to make other arrangements to allow the 
transfer to proceed.
    Can you tell us about these arrangements and the situation 
with respect to the airport management and whether that is 
going to cause any problems?
    Mr. Johnson. First of all, we recognize the need for the 
airport for Adak to be successful. So, we all accept that.
    The Department of Defense is working with the various 
agencies that would use the airport, including the Aleut 
organization, to figure out how best to have it operated and 
paid for. The State Transportation Commissioner in Alaska has 
agreed to operate it, but would like funding, of course. So, we 
are trying to find a common ground on how best to fund it.
    Senator Wyden. Now, you also mention in your testimony that 
in addition to the 47,150 acres proposed for conveyance to the 
corporation, there are approximately 29,650 additional acres in 
the Adak military public land withdrawal, of which about 25,500 
acres are environmentally suitable for transfer now.
    Do you envisage that this 25,500 acres will at some future 
date be conveyed to the corporation in another exchange?
    Mr. Johnson. At the current time, we plan to transfer 
32,000, which is ready now, and an additional 15,000 which will 
be ready next year. The others are scheduled to be transferred 
to Interior, and they may want to transfer it on, but that is 
not in the current plans.
    Senator Wyden. I guess what I am wondering is this going to 
be the beginning and there will be another piece of legislation 
needed. What is your sense?
    Mr. Johnson. We believe this piece of legislation will be 
sufficient. I gave you a copy of what we are talking about, 
which is very interesting.
    Senator Wyden. That is very helpful. We saw that.
    Okay, Senator Craig. I am sorry, Frank. Excuse me. I did 
not look over. Excuse my bad manners. Senator Murkowski.
    Senator Murkowski. No problem, Senator. Obviously I did 
sneak in. I was down at another hearing and I apologize to my 
Alaska colleagues. I want to thank you for holding the hearing 
and accommodating our witnesses.
    Have you both been to Adak?
    Mr. Johnson. I have not. The gentleman behind me has. I 
have been to Shemya, but not Adak.
    Mr. Bowman. I have not, sir.
    Senator Murkowski. Well, I have and it is a very 
interesting place. The Navy simply left it. It is kind of 
startling to go down a little street and see the Golden Arches 
unlit but there. It is kind of startling to go in to the school 
and see a brand new school that is called the Ann Stevens, 
named after Senator Stevens' wife who was killed in the 
aircraft accident in Anchorage several years ago, and see the 
swimming pool with water in it ready for a dip. Very, very 
eery. A community that housed 6,000 naval personnel and their 
dependents.
    It is an area where the weather can get tough. The wind 
blows and you know it blows. The only way you can monitor air 
pollution there is to hang the monitoring device directly over 
the exhaust of the diesel generation because 80- and 90- and 
100-mile winds are not uncommon at all.
    What we have here, Mr. Chairman, is a native regional 
corporation who sees this as an opportunity to try and develop 
an economy using this resource. The economy is pretty much 
associated with fishing because that is all that they really 
have as a potential resource. It is kind of off the chart from 
the standpoint of tourism but has an extraordinarily adequate 
runway and facility. The problem, of course, is the cost of 
maintaining it while you try and stabilize it to support.
    It has been suggested by some as kind of a--and this might 
appeal to some members--prison, only you would not have to do 
anything more than to fly the prisoners in and supply them. It 
would establish its own hierarchy. You know, those that were 
more dominant, the A types, would dominate the B types and so 
forth. You would probably have few repeat violators. There is 
no way to get off the island because you might swim, but you 
are not going to get very far. And others have said, no, that 
will turn into a Devil's Island. So, as far as pursuing that 
alternative, it was abandoned because I guess the human race 
has advanced now so we do not treat prisoners and let them kind 
of treat themselves.
    But in any event, the idea of the regional corporation 
taking this over, with the help of the Federal Government, is 
the best of all solutions. We are anxious to work with the 
Aleut Corporation in their effort to try to take this excess 
resource of the Federal Government and utilize it in a 
productive way, providing employment for their people. So, I am 
pleased that you would accommodate the opportunity to bring 
this before the committee.
    I would suggest that in the future, try to get some 
witnesses who have been out there, and I do not mean that 
demeaningly, but we are always interested in promoting a little 
hotel and air travel business in our State.
    [Laughter.]
    Senator Wyden. I will work very closely with you, Senator 
Murkowski, on it. I think I may pass on the prison component 
and send that to Senator Leahy and the Judiciary Committee. But 
we will be working very closely with you on it and know this is 
an important priority.
    Senator Murkowski. Well, there might be some of the hard-
nosed conservatives on the Judiciary Committee that might just 
support the idea.
    Senator Wyden. It may well be. Perhaps me.
    [Laughter.]
    Senator Murkowski. Thanks.
    Senator Wyden. Thank you.
    We will excuse you then. Unless any of you would like to 
add anything further, we will excuse you at this time. Thank 
you.
    All right. Let us have the Honorable Janet Porter, chair of 
the NACo Rural Action Caucus, Reserve, New Mexico.

STATEMENT OF JANET S. PORTER, TREASURER, CATRON COUNTY, NM, ON 
         BEHALF OF THE NATIONAL ASSOCIATION OF COUNTIES

    Ms. Porter. Good afternoon. Mr. Chairman and distinguished 
members of the subcommittee, my name is Janet Porter. I am the 
elected county treasurer from Catron County, New Mexico. I am 
here today representing the National Association of Counties, 
the New Mexico Association of Counties, and my community of 
Catron County.
    It is also my privilege to serve as the chair of NACo's 
Rural Action Caucus, a bipartisan coalition of over 1,500 rural 
elected officials striving to improve conditions in rural 
counties across America.
    I thank you for holding this hearing today, and I wish to 
also extend great thanks to my Senator, Chairman Bingaman, for 
sponsoring S. 454, the PILT and Refuge Revenue Sharing 
Permanent Funding Act. It is landmark legislation and it should 
be enacted without delay.
    Mr. Chairman, I am confident that members of the 
subcommittee are all familiar with the Payment in Lieu of 
Taxes, PILT. Indeed, I am happy to note that 12 of the 17 
members of this subcommittee recently joined 55 other Senators 
from both parties in signing a letter to the Interior 
appropriators supporting the increased PILT funding. This shows 
your understanding of the importance of these dollars to the 
over 1,800 counties which rely on them. We thank you for your 
strong support in the face of a disappointing budget request 
from the Department of the Interior.
    However, for the record, though we are grateful for any 
increased appropriation, we view incremental increases as 
simply a stop-gap measure. PILT should not be seen as another 
spending program in the Bureau of Land Management and it should 
not have to compete with the worthwhile conservation programs 
within the Interior and related agencies appropriations bill. 
The citizens of America's public lands counties deserve to see 
PILT funded at its full authorization, and they deserve it on a 
permanent basis.
    Mr. Chairman, the people of the United States own 62 
percent of my county. With the passage of the PILT Act in 1976, 
the people by an act of Congress acknowledged their fiscal 
obligation to the counties that contain Federal land.
    Shamefully since then, those payments have been delinquent 
year after year. Since 1995, no Department of the Interior 
budget has ever requested more than half of PILT's authorized 
amount, and no Congress has ever appropriated more than two-
thirds of the authorized amount. Even at full funding, PILT 
would yield only pennies on the dollar compared to what the 
land would yield were it privately owned and on the tax rolls.
    Mr. Chairman, under New Mexico law, I am the property tax 
collector for the county, for the Village of Reserve, our two 
independent school districts, and other taxing agencies within 
Catron County. This means that if a private property owner 
fails to pay his taxes due, it is my responsibility to try to 
collect it on behalf of the county and the other institutes 
that depend on those revenues. If after 3 years the landowner 
still fails to pay his delinquent taxes, the State of New 
Mexico takes over and sells the property at public auction to 
settle the debt. Why? Because all property owners have to pay 
their fair share to support the basic functions of local 
government.
    Why should the hardworking people of Catron County have to 
subsidize public services on Federal lands through higher 
property taxes? This is a disgrace.
    NACo President and fellow New Mexican, Santa Fe County 
Commissioner Javier Gonzales recently said that he views this 
as a simple matter of economic justice. It is unjust that a 
landowner be stripped of his property for failing to pay the 
county the full assessed amount when the county's richest and 
most powerful landowner gets to decide unilaterally how much to 
pay. The Federal Government should pay the amount due in full 
every year. Period.
    Mr. Chairman, if I may, I would like to take a moment to 
respond to one of the concerns we have heard about this 
measure. Some longtime champions of PILT are also principal 
fiscal conservatives with an aversion to mandatory spending or 
entitlements. To them we respectfully submit that in our view 
true conservatism requires paying for needs before spending on 
wants. Unfortunately, no administration has ever shown this 
kind of fiscal responsibility when it comes to meeting the 
national obligation to the Federal lands counties.
    Confident that our friends in Congress would take care of 
us, successive administrations have requested lavish funding 
for all kinds of politically popular programs, leaving you on 
the Hill to do the unpopular heavy lifting. And while many of 
you on the subcommittee have championed this cause over the 
years, the time has come to take PILT off the table. I repeat 
the Federal Government should pay the amount due in full every 
year. Period.
    Thank you, Mr. Chairman, for the opportunity to testify. I 
would be happy to respond to any questions you may have.
    [The prepared statement of Ms. Porter follows:]
Prepared Statement of Janet S. Porter, Treasurer, Catron County, NM, on 
             Behalf of the National Association of Counties
    Mr. Chairman and distinguished members of the Subcommittee, my name 
is Janet Porter and I am the elected County Treasurer for Catron 
County, New Mexico. I am here today representing the National 
Association of Counties (NACo), the New Mexico Association of Counties 
and my community of Catron County.
    I thank you for holding this hearing today, and I also wish to 
thank my Senator, Chairman Bingaman, for sponsoring S. 454, the ``PILT 
and Refuge Revenue Sharing Permanent Funding Act''. It is landmark 
legislation and should be enacted without delay.
    Mr. Chairman, I am confident that members of the subcommittee are 
all familiar with the Payment in Lieu of Taxes (PILT) program. The 
program was conceived in 1976 to offset costs incurred by counties for 
services provided to federal employees and their families, and to the 
users of the public lands. These include education, solid waste 
disposal, law enforcement, search and rescue, health care, 
environmental compliance, fire fighting and other important community 
services.
    I am happy to note that twelve of you recently joined 55 of your 
Senate colleagues from across the political spectrum and across the 
country in signing a letter to the Interior appropriators which shows 
your understanding of the importance of PILT to America's public lands 
counties. In that letter you argued for moving PILT toward its fully 
authorized funding level.
    As you know, NACo actively promoted the effort to secure those 
signatures and will continue to seek enhanced funding in the course of 
the FY 2003 appropriations process. We thank you for your strong 
support.
    However, for the record, we view incremental appropriation 
increases as a short-term, stop-gap measure. PILT is not just another 
spending program in the Bureau of Land Management budget. It should not 
have to compete with worthwhile conservation programs within the 
Interior Department. The citizens of America's public lands counties 
deserve to see PILT funded at its full authorization. And they deserve 
it on a permanent basis.
    Allow me to explain.
    Mr. Chairman, the people of the United States own 62% of Catron 
County. And since the passage of the PILT Act in 1976, when the people, 
by an act of Congress, acknowledged their fiscal obligation to the 
counties that contain federal land, the payment has been delinquent, 
year after year.
    Since 1995, no Department of the Interior budget has ever requested 
more than half of PILT's authorized amount, and no Congress has ever 
appropriated more than two-thirds of the authorized amount.
    Mr. Chairman, I use the word delinquent deliberately. Under New 
Mexico law, I am the property tax collector for the County, the Village 
of Reserve, our two independent school districts, and the other taxing 
agencies within Catron County. This means that if a private property 
owner fails to pay the taxes due, it is my responsibility to try to 
collect it on behalf of the county and the other local government 
entities that depend on those revenues. If, after three years the land 
owner still fails to pay his delinquent taxes, the State of New Mexico 
takes over and sells it at public auction to settle the debt.
    Why? Because all property owners have to pay their fair share to 
support the basic functions of local government.
    Why should the hard-working people of Catron County have to 
subsidize public services on federal lands through higher property 
taxes? It is unconscionable.
    NACo president and fellow New Mexican, Santa Fe County Commissioner 
Javier Gonzales said recently that he views the passage of S. 454 as 
``a simple matter of economic justice.'' It is unjust that a private 
land owner be stripped of his property for failing to contribute to the 
county treasury when the county's richest and most powerful land owner 
does the same with impunity year after year.
    The federal government should pay the amount due in full every 
year, with no questions asked.
    Mr. Chairman, though we may differ on specific resource management 
issues, counties do not want to privatize the federal lands. NACo 
recognizes that our National Forests, National Parks, BLM lands and 
National Wildlife Refuges do indeed belong to all Americans and that 
all Americans have a stake in their conservation for the generations to 
come. The point is that with rights come responsibilities. We believe 
that fully funding PILT is one such responsibility.

    Senator Wyden. Thank you, Ms. Porter. That is very helpful 
testimony.
    How do you respond to the suggestion in the 
administration's testimony that counties do not need an 
increase in PILT appropriations because some Federal revenue 
sharing programs are increasing?
    Ms. Porter. The Federal revenue sources that are 
increasing, those receipts are actually taken into 
consideration with the formula for PILT. The revenue sharing 
dollars offset PILT. As they go up, PILT money comes down.
    Senator Wyden. How do you respond to the administration's 
testimony that it supports PILT and Refuge Revenue Sharing 
based on its budget requests for fiscal year 2002 and fiscal 
year 2003?
    Ms. Porter. Well, sir, we find that to be an insult. What 
we would like to see is more money where the administration 
throws around some of the popular phrases nowadays.
    The proposed $165 million for fiscal year 2003 is actually 
a huge cut. It is a cut of $45 million. It will require raising 
local property taxes in rural communities or deep cuts in local 
services. Balancing the Federal budget is on the backs of the 
citizens of public lands counties. In New Mexico, we are 
required to operate under a balanced budget each year. If we do 
not receive the full funding for PILT, we must increase our 
local property taxes.
    Senator Wyden. Well, you have done an excellent job. As you 
know, we westerners have a big job in terms of educating people 
in other parts of the country. They do not have the same 
Federal ownership. We are talking about communities where the 
Federal Government owns well over 50 percent of the land. Of 
course, we don't have those funds to sell as private property 
which would generate revenue and would go to pay for services. 
If you are, say, from one of the States in New England where 
there is very little Federal ownership, they sell private 
property to pay for basic services and probably look at what we 
consider a lifeline as something, well, the West is just 
getting something extra.
    But you have made the case in a very eloquent way that that 
is not at all what transpires. We are prepared to be fiscally 
disciplined as we deal with these issues, and you have 
described how you do that on the local level. But we also 
expect the Federal Government to be a decent partner and a 
respectable partner. So, I think you have reflected very well 
on the people of your State of New Mexico and spoken for 
westerners overall in my opinion.
    As you could tell, I am very sympathetic to Senator 
Bingaman's bill. If we cannot get that, we are going to dig in 
with the administration and do our best to significantly 
increase the resources that all of you have at the local level.
    Would you like anything further? Go ahead.
    Ms. Porter. I just wish to thank this committee for the 
support that they have offered Senator Bingaman and for all of 
the counties. This is not just a western issue. However, we are 
the largest recipients of the money because we do have more 
Federal acreage, but it is a national cause. We do appreciate 
your support. Thank you for this opportunity to testify.
    Senator Wyden. We are glad you are a spokesperson for a 
very deserving cause.
    With that, the subcommittee is adjourned.
    [Whereupon, at 3:47 p.m., the hearing was adjourned.]
                                APPENDIX

              Additional Material Submitted for the Record

                              ----------                              

     Statement of Vincent M. Tutiakoff, Sr., President, The Aleut 
                              Corporation
    The Aleut Corporation (TAC) is the Alaska Native Regional 
Corporation established under the Alaska Native Claims Settlement Act 
(ANCSA) for the Aleutian Islands region of Alaska. We have over 3,125 
Aleut shareholders for whom we manage our lands and resources and seek 
to provide for the economic, social and cultural well being thereof. 
For the past six years TAC has worked towards the fulfillment of our 
goals of re-establishing a local community on Adak and the re-use of 
its unique assets for the benefit of our Aleut shareholders. We are now 
approaching the end of this lengthy and complex process and TAC 
wholeheartedly supports S. 1325 and urges the Committee and the Senate 
to pass this legislation so that we move forward with implementation of 
the Adak Land Transfer Agreement.
    Adak falls within the boundaries of the Alaska Maritime National 
Wildlife Refuge, but that is not how most think of it. For fifty years 
Adak stood alone, literally and figuratively, as an active naval 
installation in the center of the North Pacific and part of the front 
line of our national defense. It was a large, active and relatively 
independent military community. When TAC made its ANCSA land selections 
Adak was not available due to the defense withdrawal and the wildlife 
refuge status, despite the fact that the Aleut people had a long 
history of use of and presence on Adak. So when the decision was made 
to close Adak as a military facility, TAC was naturally interested in 
reclaiming it for our shareholders. Moreover, the same attributes that 
made Adak useful as a defense site also make it attractive in terms of 
commercial economic activity. Commercial reuse of Adak would provide 
employment to many Aleut people and will serve the economic welfare of 
all of our shareholders. At the same time, the infrastructure on Adak 
would be inimical to the Department of the Interior's mission and 
obligation to manage the property as part of the wildlife refuge. Thus, 
a transfer of Adak to TAC would benefit not only TAC, but the United 
States as well.
    In September 2000, TAC, the Navy and the Department of the Interior 
signed the ``Agreement Concerning the Conveyance of Property at the 
Adak Naval Complex'' (Adak Transfer Agreement) with the Navy and the 
Department of the Interior. Under the Agreement the Navy and Interior 
will lift the military withdrawal from most of the island. As a result, 
approximately 75,000 acres will revert back to the jurisdiction of the 
Department of the Interior and the U.S. Fish and Wildlife Service. The 
Department will then transfer the ``Adak Exchange Lands'' (about 47,000 
acres) to TAC in exchange for an equal number of TAC's ANCSA selections 
elsewhere in the Refuge. TAC's selections included in this exchange are 
on 13 small Aleutian islands also located within the boundaries of the 
Alaska Maritime National Wildlife Refuge. These are spectacular 
undeveloped islands alive with wildlife, and we clearly understand why 
the Department of the Interior wishes to absorb them into the Refuge. 
Through this exchange TAC will acquire property it can put to work 
expediently. By trading its selections for the Adak base TAC also can 
put its ANCSA entitlements to work without creating new land use 
conflicts within the Refuge.
    Although final transfer of Adak cannot occur until after the 
legislation before the Committee is enacted, as of October 1, 2000, 
responsibility for the day-to-day operation and management of Adak and 
its facilities fell to TAC and the Adak Reuse Corporation (ARC), the 
local reuse authority established under the base closure laws. ARC 
manages the island under an umbrella lease from the Navy. The new City 
of Adak was established by ballot initiative in April of last year and 
it is gradually assuming responsibility for the public facilities and 
infrastructure from ARC.
    This arrangement has enabled us to begin to realize the commercial 
possibilities that arise from Adak's location and infrastructure, 
primarily by opening opportunities that previously were not available 
in Alaska. These activities call into play the island's seaport, 
airport, fuel facilities, housing, medical and recreation facilities. 
Earlier this year Icicle Seafood began operating a year-round 
processing facility on Adak and since then has processed more than 18 
million pounds of cod and one million pounds of crab. This is all new 
business for Alaska because other Aleutian ports are several sea days 
further east of Adak and the extra distance made an Alaskan port 
impractical for many vessels.
    AEC Fuels has taken over operation of what is the largest bulk fuel 
farm in southwestern Alaska and is providing fuel to other communities 
and commercial interests in the region. Adak also offers a unique 
platform for scientific research activities in the North Pacific and we 
are actively promoting Adak as an excellent destination for 
experiencing marine life, for bird watching, and for military history 
buffs. In short, the possibilities for Adak are becoming more real each 
day.
    There is still one potential obstacle to the transfer and reuse of 
Adak and that concerns the airport. The Adak airfield has two (2) 7,800 
feet jet runways and is equipped with ILS and other navigational aids. 
It is used or relied upon as a critical backup by the Navy, the Air 
Force, the Coast Guard, the Air National Guard, the Federal Aviation 
Administration, the Fish and Wildlife Service and numerous other public 
and private interests. It is also, along with the establishment of a 
viable City government and the fishery-based economic activity, a 
crucial ingredient for the successful reuse of Adak. However, TAC is 
not in a position to take on the financial costs and risks of operating 
an airport. Nor should we have to do so, as no other community in 
Alaska is dependent upon a privately owned airfield. We have been 
working with the Navy and the Alaska Department of Transportation and 
Public Facilities on a solution whereby the Adak airport can be made 
part of the State system, if the State can be provided with federal 
funds to support its operation during a relatively short transition 
period. While we are confident that such a resolution can be achieved 
it is essential that we do so in order to be able proceed with a final 
transfer.
    The legislation before the Committee would ratify the Adak Transfer 
Agreement including all the terms and conditions thereof. It would also 
do several things that are incorporated in the Agreement, but for which 
there is no current legal authority. The most important of these is to 
authorize the Navy to transfer all of the personal property on Adak to 
TAC so that it will pass with the real estate. Congressional authority 
is also necessary to remove the Adak Exchange Lands from the Refuge by 
modifying the boundaries thereof, to clarify that those lands are not 
subject to the restrictions of Section 22(g) of ANCSA, and to deem the 
public easement requirements of Section 17(b) of ANCSA as satisfied. 
Finally, the bill ensures that the property tax treatment of the 
exchange is consistent with other ANCSA land exchanges. It is our hope 
that this can be expanded to also provide income tax treatment similar 
to what has been extended to other ANCSA land exchanges as well. In 
short, we need the legislation so as to effectuate fully all of the 
terms and conditions for the transfer and reuse of Adak.
    On behalf of TAC I want to thank all the members of our Alaska 
congressional delegation for their support and assistance of the Adak 
transfer and reuse effort. I particularly want to thank Senator 
Murkowski for his leadership in sponsoring this enabling legislation.
    We at TAC realize that we have taken on an enormous task and it has 
been a great challenge. Furthermore, it is not yet complete and more 
hard work will be necessary. However, we have a come a very long way in 
just six years. The successful and beneficial reuse of Adak is well 
underway. Enactment of this legislation is the key remaining step 
towards complete fulfillment of a transfer that will benefit not only 
TAC and the Aleut people, but the diverse interests of the United 
States, as well. For that reason we urge the Committee to pass S. 1325.
                                 ______
                                 
                                                    April 10, 2002.

Hon. Orrin G. Hatch,
U.S. Senate, Washington, DC.
    Dear Senator Hatch: I am writing in support of Senate Bill S. 1497, 
a proposal to establish the Virgin River Dinosaur Footprint Preserve, 
at a locality near the city of St. George, Utah. Acquisition and 
protection of this site is of high importance to the science of 
vertebrate paleontology. The locality preserves multiple rock surfaces, 
each bearing exceptionally well-preserved dinosaur footprints, spread 
out over an area of more than ten acres. Studies of these trackways, 
which include skin impressions and extremely rare traces of swimming 
animals, promise to yield significant new insight into dinosaur 
appearance, locomotion, ecology, and behavior.
    In addition, in the two years since its discovery, the site has 
already received more than 300,000 visitors from over 80 nations it is 
clearly an educational resource that should be protected for the 
public.
    Thank you very much for your time and consideration.
            Sincerely,
                                        Matthew C. Lamanna,
                                        University of Pennsylvania.
                                 ______
                                 
                                                    April 10, 2002.

Hon. Orrin G. Hatch,
U.S. Senate, Washington, DC.
    Dear Senator Hatch: As Editor for the Jurassic Park Institute, an 
educational program funded by Universal Studios and Amblin 
Entertainment, I am constantly exposed to the need for the preservation 
of important and accessible paleontological sites. It is rare that 
children have an opportunity to learn from something that interests 
them, and dinosaurs provide a unique tool for capturing the imagination 
of children while teaching them real science.
    I have visited the St. George site many times and I am amazed at 
the constant stream of visitors to this remarkable assembly of fossil 
footprints. Its proximity to a major interstate highway offers an 
especially attractive incentive to create a permanent public exhibit. I 
have seen not only the awe and excitement of the general public when 
they visit, but I have also witnessed the excitement and enthusiasm of 
the scientists who have studied these fossils.
    I urge you to support S. 1497 and preserve this site for the many 
millions of people who will visit over the years.
            Sincerely,
                                   Joe Iacuzzo,
                                           Jurassic Park Institute,
                                           Paleo Consulting, LLC.
                                 ______
                                 
                                                    April 24, 2002.

Hon. Orrin G. Hatch,
U.S. Senate, Washington, DC.
    Dear Senator Hatch: I am writing to express my support for Senate 
Bill S. 1497, which allocates funds for preserving the Virgin River 
Dinosaur Footprint Preserve. This is a truly remarkable site, with some 
of the best-preserved three-toed dinosaur footprints in the world, as 
well as a diverse biota of fishes, plants, and invertebrates. The 
Virgin River tracksite constitutes a paleoecological snapshot from a 
short interval of time early in the reign of the dinosaurs. Apart from 
its scientific importance, the site will undoubtedly be a significant 
educational resource for the region, as well as a major tourist 
attraction.
    The dinosaur footprints are so significant that I have obtained 
casts of some of them for my university's research and teaching 
collection. A site this important doesn't turn up every day, and I urge 
you to act to preserve it.
    Thank you for your consideration.
            Sincerely,
                                   James O. Farlow, Ph.D.,
                                           University of Indiana/
                                               Purdue,
                                           Professor of Geology.

                                    

      

</pre></body></html>
